<html>
<title> - OVERSIGHT HEARING ON THE ESSENTIAL ROLE OF LIVESTOCK GRAZING ON FEDERAL LANDS AND ITS IMPORTANCE TO RURAL AMERICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







   THE ESSENTIAL ROLE OF LIVESTOCK GRAZING ON FEDERAL LANDS AND ITS 
                      IMPORTANCE TO RURAL AMERICA

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 12, 2018

                               __________

                           Serial No. 115-50

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-740 PDF                WASHINGTON : 2018                 
   
   
   
   
   
   
   
   











                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Ruben Gallego, AZ
Raul R. Labrador, ID                 A. Donald McEachin, VA
Scott R. Tipton, CO                  Anthony G. Brown, MD
Bruce Westerman, AR                  Jimmy Gomez, CA
  Vice Chairman                      Vacancy
Daniel Webster, FL                   Vacancy
Jack Bergman, MI                     Raul M. Grijalva, AZ, ex officio
Liz Cheney, WY
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                                 ------                                






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 12, 2018..........................     1

Statement of Members:
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Tsongas, Hon. Niki, a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4

Statement of Witnesses:
    Little, Hon. Brad, Lieutenant Governor, State of Idaho, 
      Boise, Idaho...............................................     5
        Prepared statement of....................................     7
    Molvar, Erik, Executive Director, Western Watersheds Project, 
      Laramie, Wyoming...........................................    14
        Prepared statement of....................................    15
    Naugle, Dave, Professor, Wildlife Biology Program, University 
      of Montana, Missoula, Montana..............................     8
        Prepared statement of....................................    10
    Smallhouse, Stefanie, President, Arizona Farm Bureau 
      Federation, Gilbert, Arizona...............................    24
        Prepared statement of....................................    25
        Questions submitted for the record.......................    28

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    48
                                     


 
OVERSIGHT HEARING ON THE ESSENTIAL ROLE OF LIVESTOCK GRAZING ON FEDERAL 
               LANDS AND ITS IMPORTANCE TO RURAL AMERICA

                              ----------                              


                        Thursday, July 12, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Pearce, Thompson, 
Tipton, Westerman, Gianforte, Curtis, Bishop (ex officio); 
Tsongas, and Gallego.
    Also present: Representative LaMalfa.

    Mr. McClintock. The Subcommittee will come to order. I 
would ask unanimous consent that Congressman Doug LaMalfa of 
California be allowed to sit with the Subcommittee and 
participate in the oversight hearing today.
    Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chairman. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    Therefore, I would ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    Without objection, so ordered.
    And now, for the time we have all been looking forward to, 
opening statements by the Chairman and Ranking Member, and I 
will begin.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The Subcommittee on Federal Lands meets 
today to examine the continuing importance of grazing on 
Federal lands, as well as some of the growing challenges facing 
this truly American industry.
    The BLM and the U.S. Forest Service control 440 million 
acres of public lands, and are charged with the responsibility 
of putting them to sustainable, productive use. Gifford 
Pinchot's maxim was, ``the greatest good for the greatest 
number of people in the long run.'' An integral part of meeting 
this responsibility has always been through cattle grazing, 
both for fuels management and to supply the Nation with a vital 
part of its food supply.
    Cattle grazing has a long and colorful history in the 
American West, and that legacy lives on today. For generations, 
America's cattlemen and ranchers have proven themselves good 
stewards of our national rangelands, animated by a time-honored 
respect for the land, and motivated by a desire to pass this 
way of life on to succeeding generations.
    Across the United States, over 22,000 public lands ranchers 
manage over 250 million acres of public lands. Additionally, 
these hardworking families own 129 million acres of private 
rangeland intertwined with Federal lands. Their herds are 
reliant on forage from both.
    Public lands ranchers regularly go above and beyond the 
call of duty to improve their grazing allotments. They 
frequently pay out-of-pocket on improvements that include 
wildfire fuels reduction, wildlife habitat restoration, water 
source management, and clearing trails. And when wildfires do 
occur, it is often public lands ranchers who are the first to 
respond. Their stewardship provides significant cost savings 
for Federal land management agencies that are already 
struggling to keep up with substantial deferred maintenance 
backlogs.
    As we will hear today, public land grazing faces growing 
challenges and opposition that threaten the future of this 
important industry. Ever-expanding regulatory burdens continue 
to drive up the cost of ranching on public lands. Public lands 
ranchers and the Federal land management agencies they work 
with daily have also increasingly become the targets of endless 
harassing litigation seeking to stop all grazing and many other 
productive uses of our Federal lands.
    I have often cited Eric Hoffer's observation that, ``Every 
great cause begins as a movement, becomes a business, and 
eventually degenerates into a racket.''
    In recent years, we have witnessed the rise of 
organizations whose business model is based on sue, settle, and 
award--all at taxpayer expense.
    The purpose of use, resort, and recreation, for which these 
lands were originally appropriated and for which our land 
agencies were originally created, would be replaced with a new 
exclusionary policy forbidding the public's use of the public's 
land. We have already seen the damage this policy of benign 
neglect has done to our precious forests. Now we see the same 
destructive ideology being turned against our rangelands.
    These attacks, orchestrated by well-funded political 
groups, are creating a paralyzing environment in which sound, 
scientific land management decisions are abandoned, both by 
ranchers and public lands managers, for fear of endless 
frivolous lawsuits filed by serial litigants.
    This Subcommittee's principal priorities are to restore 
public access to the public lands, to restore good management 
to the public lands, and to restore the Federal Government as a 
good neighbor to those communities directly impacted by the 
public lands.
    Cattle grazing is integral to all three objectives. It puts 
our public lands to productive use, it provides an important 
management tool for fuel reduction and fire prevention, it 
supplements and extends our ability to superintend our vast 
public land holdings, and it provides revenues and livelihoods 
for the surrounding communities.
    I look forward to hearing the testimony from our witnesses 
today as we seek to preserve responsible public lands ranching 
for generations to come.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    The Subcommittee on Federal Lands meets today to examine the 
continuing importance of grazing on Federal lands, as well as some of 
the growing challenges facing this truly American industry.
    The BLM and the U.S. Forest Service control 440 million acres of 
public lands and are charged with the responsibility of putting them to 
sustainable, productive use. Gifford Pinchot's maxim was, ``the 
greatest good for the greatest number of people in the long run.'' An 
integral part of meeting this responsibility has always been through 
cattle grazing, both for fuels management and to supply the Nation with 
a vital part of its food supply.
    Cattle grazing has a long and colorful history in the American 
West, and that legacy lives on today. For generations, America's 
cattlemen and ranchers have proven themselves good stewards of our 
national rangelands, animated by a time-honored respect for the land 
and motivated by a desire to pass this way of life on to succeeding 
generations.
    Across the United States, over 22,000 public lands ranchers manage 
over 250 million acres of public lands. Additionally, these hardworking 
families own 129 million acres of private rangeland intertwined with 
Federal lands. Their herds are reliant on forage from both.
    Public lands ranchers regularly go above and beyond to improve 
their grazing allotments. They frequently pay out-of-pocket on 
improvements that include wildfire fuels reduction, wildlife habitat 
restoration, water source management, and clearing trails. When 
wildfires do occur, it is often public lands ranchers who are first to 
respond. Their stewardship provides significant cost savings for 
Federal land management agencies that are already struggling to keep up 
with substantial deferred maintenance backlogs.
    As we will hear today, public land grazing faces growing challenges 
and opposition that threaten the future of this important industry. 
Ever-expanding regulatory burdens continue to drive up the cost of 
ranching on public lands. Public lands ranchers, and the Federal land 
management agencies they work with daily, have also increasingly become 
the targets of endless harassing litigation seeking to stop all grazing 
and many other productive uses of our Federal lands.
    I have often cited Eric Hoffer's observation that, ``Every great 
cause begins as a movement, becomes a business, and eventually 
degenerates into a racket.''
    In recent years, we have witnessed the rise of organizations whose 
business model is based on sue-settle-and-award--all at taxpayer 
expense.
    The purpose of ``use, resort and recreation,'' for which these 
lands were originally appropriated and for which our land agencies were 
originally created, would be replaced with a new exclusionary policy 
forbidding the public's use of the public's land. We have already seen 
the damage this policy of benign neglect has done to our precious 
forests. Now we see the same destructive ideology being turned against 
our rangelands.
    These attacks, orchestrated by well-funded political groups, are 
creating a paralyzing environment in which sound, scientific land 
management decisions are abandoned both by ranchers and public lands 
managers for fear of endless frivolous lawsuits filed by serial 
litigants.
    This Subcommittee's principal priorities are to restore public 
access to the public lands, to restore good management to the public 
lands, and to restore the Federal Government as a good neighbor to 
those communities directly impacted by the public lands.
    Cattle grazing is integral to all three objectives: it puts our 
public lands to productive use, it provides an important management 
tool for fuel reduction and fire prevention, it supplements and extends 
our ability to superintend our vast public land holdings, and it 
provides revenues and livelihoods for the surrounding communities.
    I look forward to hearing the testimony from our witnesses today as 
we seek to preserve responsible public lands ranching for generations 
to come.

    With that, I recognize the Ranking Member for her opening 
statement.

                                 ______
                                 

    Mr. McClintock. And now, I am pleased to yield to our 
returning Ranking Member, Congresswoman Tsongas of 
Massachusetts.

    STATEMENT OF THE HON. NIKI TSONGAS, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Ms. Tsongas. Thank you, Mr. Chairman, and thank you to all 
our witnesses for being with us here today.
    Generation after generation of Americans have endorsed the 
idea that our public lands should be managed for the benefit of 
all Americans to support a wide range of uses, including 
recreation and sportsmen activities, energy development, 
grazing, and protecting open spaces that provide wildlife 
habitat, clean water, and clean air.
    We all want to see this important aspect of our national 
heritage managed in an effective and efficient manner, so we 
rely on professionally staffed agencies like the Bureau of Land 
Management and the U.S. Forest Service. Both agencies operate 
under a multiple use and sustained yield mandate. In other 
words, public lands must be managed in a manner that ensures 
the development and extraction of natural resources while 
preserving their long-term value for future generations of 
Americans.
    Both the Bureau of Land Management and the Forest Service 
are invested deeply in working with local communities to 
develop on-the-ground partnerships that responsibly balance 
conservation with the needs of people whose economic 
livelihoods depend on healthy forests and grasslands.
    I want to emphasize that I understand and appreciate 
concerns from my colleagues and some of our witnesses today 
that public lands and our Federal land management agencies can 
at times be frustrating neighbors and partners. The Federal 
bureaucracy is not always the well-oiled machine that we would 
all prefer to see.
    Federal lands pose unique challenges in communities all 
over the country. We should be having constructive 
conversations about how we can give these Federal land 
management agencies more tools in the toolbox that will help 
them be better partners, so that public lands continue to be 
managed in a way that reflects our collective commitment to 
balancing conservation for future generations with sustainable 
productivity for local communities.
    This task is made more difficult by the fact that the 
Federal Government pays more to manage the grazing program than 
it receives in return through fees. The Government 
Accountability Office report said that in 2016 the BLM and 
Forest Service spent $135.9 million on grazing management, but 
only collected $26.5 million in grazing fees. That is a loss of 
$109.4 million to the taxpayers. In 2017, the Bureau of Land 
Management loss was $60.7 million, and it is expected to be 
$63.6 million in 2018.
    Ranchers on Federal lands pay a rate that is substantially 
lower than many private and state lands. The Federal grazing 
fee is adjusted annually, and is calculated by using a formula 
originally set by Congress in the Public Rangelands Improvement 
Act of 1978. Under this formula, the grazing fee for 2018 is 
$1.41 per annual unit month, down from $1.87 in 2017. The 
Department of the Interior Economic Report for Fiscal Year 2016 
points out that grazing fees on state and private lands are as 
much as $20.50 per animal unit month.
    Federal land managers must have adequate resources to 
manage the thousands of grazing permits across millions of 
acres of public lands, and ensure that they meet agency 
standards for ecological health. Ranching has a significant 
economic impact in many rural communities, but it is not 
without impacts on the land, air, and water. Without careful 
public land management, grazing can increase soil erosion and 
stream pollution, both of which impact wildlife habitat and 
hurt overall rangeland health. The ecological impacts of 
grazing are multiplied by extreme drought conditions associated 
with climate change.
    One proposal to improve the Federal grazing program is 
Representative Adam Smith's H.R. 3624, the Rural Economic 
Vitalization Act. This legislation would allow ranchers to 
voluntarily retire their grazing permits to the Bureau of Land 
Management and the Forest Service. Ranchers would receive fair 
market value compensation for their permits paid for by private 
parties.
    The legislation creates a market-based incentive for 
ranchers to receive compensation for their permits, save 
taxpayer dollars, and promote conservation. I hope that this 
legislation can be considered by the Subcommittee at a future 
hearing.
    Thank you again to our witnesses. I look forward to your 
testimony, and I yield back.

    Mr. McClintock. We have been joined by the Chairman of the 
House Natural Resources Committee, Congressman Rob Bishop.
    You are recognized for 5 minutes.
    OK, then we will get on to our witnesses.
    Our microphones are not automatic. You will need to press 
the button when you begin your testimony. I warn you, all 
testimony is limited to 5 minutes. That is about the maximum 
attention span of an average Congressman, so after that you 
might as well quit talking because we have stopped listening.
    And I will begin. We are very honored to have with us the 
Lieutenant Governor of the state of Idaho, the Honorable Brad 
Little.
    Welcome.

 STATEMENT OF THE HON. BRAD LITTLE, LIEUTENANT GOVERNOR, STATE 
                     OF IDAHO, BOISE, IDAHO

    Mr. Little. Thank you, Mr. Chairman, Ranking Member 
Tsongas, and Chairman Bishop. It is great to be here. My name 
is Brad Little. I am the Lieutenant Governor of the state of 
Idaho. I have a long history with my friends on the Public 
Lands Council, the National Cattlemen's Beef Association, and 
the American Sheep Industry. I used to be President of the 
Idaho Wool Growers.
    I am here today, Mr. Chairman, as you stated in your 
opening statement, to talk about how we want our fifth 
generation ranching children to have an opportunity to do what 
I have been so lucky to do in my lifetime and my father's and 
my grandfather's, and that is to be successful ranchers.
    One of the things I have learned in life in both politics 
and the ranching industry is change is inevitable. Adaptation 
and survival are optional. I would like to talk briefly about 
what I think survival looks like in the public rangeland 
ranching industry.
    First, it is obviously survival of the ranches, so that 
they can continue to be there and be active parts of the 
management of the Federal lands, whether it be fire 
suppression, fuels management, wildlife enhancement, watershed 
enhancement, all the things that ranchers do today.
    Second, survival looks like those ranchers being part of 
those communities. In my current job as Lieutenant Governor, I 
meet with school trustees, hospital board members, and county 
commissioners in county after county in the West. Those 
leaders, those people that make those communities work, that 
the rest of the public of America goes out and enjoys, the 
backbone of those communities are those ranchers serving on the 
school board, serving on the hospital board, being part of 
those communities.
    Ranchers are an indispensable part of successful management 
of public lands. The reductions in AUMs being grazed, there is 
a huge cost to abandonment. Since the dawn of the West, 
ranchers have been involved in partnership with the Federal 
agencies. Grazing truly is one of the original public-private 
partnerships.
    Unlike government administrators who often are only there 
for a few years, ranchers are there for generations. If 
ranching is regulated off of the public lands, the most 
effective and efficient public land managers will be lost.
    I will tell you a personal story of an allotment that we 
used to have, a big forest allotment, where one of the 
conditions was we had to maintain the trails. This is a heavily 
timbered area, and every year in July and August we spent a lot 
of time clearing trails so we could manage our land. The 
sportsmen, the wildlife advocates use those trails.
    We were regulated off with the introduction of a non-native 
species that just basically made it impossible for us to 
operate. As a result, after we left with our livestock, the 
area burned, decimating the watershed. And now access to that 
area has been totally lost.
    When I look at wildlife habitat and fuels management being 
done today, there are several areas where the agencies have had 
very successful programs, where we are using livestock to 
manage wildlife, and in Idaho, in particular. Several other 
states have it, but we have been at the forefront, where since 
2000, in just 6 years, we have 330 ranchers that are signed up. 
They are part of the initial attack team that all the agencies 
use. Today, there are 9 million acres of real estate in Idaho 
that are being protected by initial attack in RFPAs.
    And in the endangered species area in Idaho we have the 
Idaho Governor's Office of Endangered Species, where over the 
last several years we have protected 33 different plant and 
animal species under the framework of the Endangered Species 
Act.
    Today, I would like to advocate for Senator Barrasso's 
draft legislation, which is part of the Western Governors' 
bipartisan resolution on endangered species.
    Mr. Chairman, ranchers who have grazing permits are an 
integral part of the West today. Regulatory reform from here in 
Washington plays a critical role in determining the efficacy 
not only for those benefits, for those communities, but whether 
our children and grandchildren are going to continue to be part 
of our great public lands in the West.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Little follows:]
Prepared Statement of the Hon. Brad Little, Lieutenant Governor, State 
                                of Idaho
    Good morning. Thank you, Chairman McClintock, Ranking Member 
Hanabusa, and members of the Subcommittee. My name is Brad Little. I am 
the Lieutenant Governor of Idaho, and a cattle and sheep rancher. I am 
also a longtime member of the Public Lands Council, the National 
Cattlemen's Beef Association, and the American Sheep Industry 
Association. In the past, I have been involved in volunteer leadership 
for these organizations, and have advocated on their behalf here in 
Washington, DC.
    My grandchildren will be fifth generation Idaho ranchers. I cannot 
help but wonder what the ranching landscape will look like when they 
are ready to take the reins.
    With our private lands scattered within public lands, my family has 
always believed in providing access to all kinds of recreationists and 
other multiple use activities. There are thousands of acres of the 
family ranch lands open for public use and hunting throughout five 
Idaho counties. My family founded the Little-Gem Cycle Park, one of the 
largest off-road vehicle parks in America. Near Boise, our private land 
is part of the city trails system. In both areas, we work with local, 
state and Federal agencies to deliver access.
    I am here today to better define the benefit to America of our 
public lands ranchers and guide you through the livestock industry's 
rich history of stewardship for our western lands.
    I urge you to address the burdensome regulatory environment which 
threatens our way of life and those rural communities where ranching is 
the year-round backbone that sustains our schools, health care, and 
economies. Additionally, we provide access to individuals who 
seasonally visit our public lands.
    While current efforts by this Administration and Congress give me 
great optimism for future generations of ranchers, we still have a ways 
to go. More work is needed to create a regulatory environment where 
Federal lands ranchers can survive.
    In the conservation world, nearly all grand scale successes are a 
result of public-private partnerships. I would argue that grazing is 
the original public-private partnership. Livestock producers provide a 
myriad of benefits to the land. With the reduction in AUMs being 
grazed, there is a huge cost due to the abandonment of these 
allotments.
    Ranchers are indispensable in the successful management of our 
public lands. Unlike government administrators, who are only there for 
a few years, ranchers have been on the land for generations. They are 
the public lands management infrastructure across the West. If ranchers 
are regulated off, our country loses the most effective and efficient 
public lands managers, and the private inholdings are likely sold for 
development.
    As Lieutenant Governor, I have seen these benefits most prominently 
during fire season. Grazing reduces the fuel loads and prevents the 
catastrophic, fast-moving fires that Idaho has experienced more 
frequently in recent years.
    BLM's Targeted Grazing program is an example of how ranchers and 
Federal land managers can work together to prevent these natural 
disasters. According to the National Interagency Fire Center, the 
average cost of fuels management (including prescribed fire, manual 
removal by chainsaw, and herbicide application) comes to $150 an acre. 
Ranchers provide this service at virtually no cost to the taxpayer.
    Ranchers don't just prevent fires, they also fight them. Six years 
ago, Idaho created Rangeland Fire Protection Associations. These 
volunteers, totaling about 330 ranchers through nine RFPAs, extend 
protection to 1.8 million acres of private land and nearly 7.1 million 
acres of adjacent public land. All their work is done at a mere 
fraction of the traditional costs to the taxpayer. If you want to save 
money, this needs to be duplicated across the West, in rangelands and 
in timberlands.
    Ranching activities also provide benefits to other multiple uses. 
For example, our cattle grazed a large Forest Service allotment in 
central Idaho. As part of that permit, we maintained miles of trails 
throughout the forest. A substantial side benefit was recreationists 
benefited from our efforts. This service was provided at no cost to the 
taxpayer. Because of the regulatory pressure, we have had to abandon 
the allotment. Ultimately, the area has burned and most of the trails 
have been abandoned, leaving no access for recreationists.
    My situation is not unique in Idaho, nor is it rare across the 
West.
    The Endangered Species Act and the National Environmental Policy 
Act are the usual suspects. While well-intended when enacted in the 
1970s, ESA and NEPA have evolved into weapons for habitual litigants, 
and the regulations they produce are as ineffective as they are 
burdensome. Species conservation doesn't work from the top-down.
    In Idaho, the Governor's Office of Species Conservation has worked 
since 2000 to protect and recover 33 different plant and animal species 
using the framework of the ESA. We tried using the same tactics to 
recover the Greater Sage Grouse, but were blindsided in 2015 when the 
Obama administration imposed range-wide mandates that did not allow for 
adaptive management.
    Luckily, the BLM and the Forest Service are working to put us back 
in the driver's seat, so we can resume our efforts through means that 
work in our unique areas. Efforts are also underway in Congress to 
increase state involvement in ESA implementation. Sen. Barrasso's 
recent legislation, crafted after the Western Governors' Association 
bipartisan resolution last year, would give states a greater role in 
species recovery and decision making.
    In short, America's goal should be to perpetuate our beautiful and 
productive western landscapes, while fostering the next generation of 
western ranch stewards.
    In closing, Mr. Chairman, ranchers with grazing permits provide an 
irreplaceable service to the land, the taxpayer, and to those who enjoy 
our public lands. The regulatory environment from Washington, DC plays 
a critical role in determining the efficacy of not only those benefits, 
but also the economies and communities that depend on them.

    Mr. Chairman, thank you and I look forward to answering your 
questions.

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony. Our next 
witness is Dr. David Naugle. He is a professor in the wildlife 
biology program at the University of Montana. He comes to us 
today from Missoula, Montana.
    Thank you for joining us, Doctor.

STATEMENT OF DAVE NAUGLE, PROFESSOR, WILDLIFE BIOLOGY PROGRAM, 
            UNIVERSITY OF MONTANA, MISSOULA, MONTANA

    Dr. Naugle. Thanks to the Committee for the opportunity to 
testify today on the compatibility of ranching and wildlife 
conservation. My name is David Naugle. I am a 20-year 
scientist, including 17 as professor in the wildlife biology 
program, University of Montana. I also serve as independent 
science advisor to USDA sage-grouse initiative, or SGI, part of 
the agency's working lands for wildlife model, administered by 
the Natural Resources Conservation Service.
    SGI has proved popular with ranchers, enrolling 1,700 
producers to conserve 6.4 million acres of grazing lands, an 
area the size of Maryland. The U.S. Fish and Wildlife Service 
recognized these accomplishments when they ruled not to list 
sage-grouse under the Endangered Species Act. This proven 
working lands for wildlife model now extends nationally to New 
England cottontail, Louisiana black bear, Oregon chub, and many 
others.
    I help NRCS evaluate farm bill conservation outcomes to 
assess their effectiveness and improve program delivery. Two 
evaluations I just published in 2018 find grouse conservation 
compatible with a variety of locally appropriate grazing 
strategies that promote native and resilient perennial plants. 
Evaluations were made possible by ranchers who enrolled with 
NRCS in rotational grazing systems, voluntarily capped 
utilization rates, modified timing of grazing, and periodically 
rested habitat.
    Non-enrolled lands, including BLM public lands, were 
managed less intensively under season-long grazing or slower 
rotations through larger pastures.
    Nest survival of sage-grouse was similar between enrolled 
and non-enrolled ranches and was consistent with that of a 
stable grouse population. Livestock presence, utilization, and 
rest were unrelated to bird use and survival. Instead, 
populations were driven primarily by severe weather events.
    Adequate shrub cover and low road densities maintained 
intact habitat provided by these big and intact ranches. And in 
a new twist, Montana State University researchers report that 
periodic disturbance by livestock may increase insect foods 
preferred by grouse chicks. In an example of adaptive 
management at its best, NRCS now, as a result of this new 
science, no longer alters grazing plans or offers higher 
incentives through the farm bill to rotationally graze or rest 
enrolled acreage simply in the name of sage-grouse.
    Grazing restrictions on public lands assume a 7-inch grass 
height to hide nests from predators. Our final examination 
shows that biased field methods incorrectly attribute higher 
next survival to this 7-inch grass height, bringing current 
public land policy into question. Common practice is to delay 
data collection until bird nests hatch or fail, for fear of 
nest abandonment by the incubating female. Allowing nest fate 
to dictate timing of data collection introduces bias, because 
hatched nests are measured later than failed nests, giving 
spring grasses more time to grow.
    After correcting for this bias, grass heights at hatched 
and failed nests were within the thickness of a penny of one 
another. Analyses and progress suggests that sagebrush, not the 
single measure of grass height, provides the necessary 
concealing cover.
    Ranchers are part of the solution, who if given 
flexibility, may prove to be valuable partners in crafting 
solutions to common threats facing ranching in wildlife. In the 
Great Basin, this means reducing wildfire frequency and 
severity, restoring watersheds at risk of cheatgrass invasion, 
and removing invading juniper trees. East of the Rockies, it 
means addressing subdivision, energy extraction, and crop land 
conversions that threaten to fragment these large and intact 
grazing lands.
    In closing, 21st century technologies will help us combat 
these common threats to ranching and wildlife. So, our science 
team, with Working Lands for Wildlife, created the first-ever 
plant cover maps that tracked changes in U.S. grazing lands. 
Dubbed the rangeland analysis platform, or RAP, this web 
application empowers users to visualize annually the impacts of 
drought on production, evaluate effectiveness of cheatgrass 
treatments over time, identify post-fire sites in most need of 
restoration, and much more.
    Powered by our industry relationships with Google's earth 
engine, mapping will be free to everybody starting this 
September at the site rangelands.app.
    I yield the remainder of my time back to the Chair.

    [The prepared statement of Mr. Naugle follows:]
  Prepared Statement of Dr. David E. Naugle, Professor, representing 
   Wildlife Biology Program, University of Montana, Missoula, Montana
    Chairman and members of the Committee, thank you for the 
opportunity to testify today about the compatibility of ranching and 
wildlife conservation.
    My name is David Naugle, I am a 20-year applied scientist, 
including the last 17 years in my current position as Professor in the 
Wildlife Biology Program, part of the Franke College of Forestry and 
Conservation, at the University of Montana in Missoula. I have 
researched the ecology of the greater sage-grouse (Centrocercus 
urophasianus; hereafter, sage-grouse) and sagebrush and grassland 
systems my entire career, publishing >90 papers and two books on these 
and related topics. Since 2010 to present, I also serve as an 
independent, third-party science advisor to the U.S. Department of 
Agriculture's (USDA) Sage Grouse Initiative (SGI), part of the agency's 
Working Lands for Wildlife (WLFW) model of species conservation 
administered by the Natural Resources Conservation Service (NRCS).
    Vast grazing lands that span the western United States are 
irreplaceable assets, producing food and fiber, supporting rural 
economies, generating recreational revenue, and sustaining world-class 
wildlife populations. Working rangelands are the common thread that 
weave together these economic and societal values in the western half 
of our Nation. Thus, keeping local ranchers productive, profitable, and 
sustainable considering challenges they face--extended drought, 
commodity price swings, and societal pressures to produce more with 
less--is a top priority for conserving rural ways of life and wildlife 
populations.
    Tackling these challenges across the western geography presents a 
unique opportunity, but limited resources necessitate a strategic, 
watershed-scale approach that replaces `random acts of conservation 
kindness' that fall short of achieving desired outcomes. As the Federal 
agency charged with helping private landowners solve natural resource 
concerns, NRCS created WLFW as its premier approach for delivering 
targeted and watershed-scale actions that proactively conserve 
America's working lands. Fueled by the Farm Bill, this proven paradigm 
implements existing NRCS programs across whole landscapes to restore 
productive agricultural lands, maximizing their benefits for people and 
wildlife.
    On western grazing lands, WLFW exemplifies how to efficiently focus 
resources to yield the most effective conservation outcomes. As part of 
WLFW, the Sage Grouse Initiative (SGI) and Lesser Prairie-Chicken 
Initiative (LPCI) have proven popular with western ranchers. To date, 
2,154 producers have partnered up to conserve or enhance 7.5 million 
acres of grazing lands, an acreage the size of Maryland, benefiting 
hundreds of rural communities and wildlife resources.
    The U.S. Fish and Wildlife Service (FWS) recognized the value of 
private landowners' conservation efforts through WLFW as a factor in 
their decision not to list sage-grouse under the Endangered Species Act 
(ESA). Rancher participation in SGI remains high post-listing decision 
because WLFW provides win-win solutions that are `good for the bird and 
good for the herd.' This winning recipe has been replicated across the 
country for Montana's fluvial arctic grayling, Louisiana black bear, 
New England cottontail and successful restoration of the Oregon Chub. 
Thanks to WLFW all of these species are now recovering, and ESA 
regulation was removed or deemed unnecessary as a result of proactive 
conservation.
    As an independent, third-party science advisor to USDA, I help NRCS 
maximize returns on the Federal Farm Bill investments made with private 
ranchers. SGI Science fills two roles: (1) develop spatial targeting 
tools that help practitioners pinpoint where to invest in watershed-
scale conservation, and (2) quantify outcomes of resulting conservation 
practices to assess their effectiveness and adaptively improve 
delivery. The Conservation Effects Assessment Project (CEAP)--a multi-
partner effort led by NRCS--has been working since 2002 to quantify 
effects of conservation practices and programs, improve the science 
base for managing agricultural landscapes, and translate science into 
practices that benefit environmental quality. The CEAP was a critical 
piece of SGI from the start and continues to play an integral role in 
funding and distribution of science-based tools and information across 
western grazing lands.
    Across sage-grouse range to date, we have used science to 
critically evaluate the targeting and effectiveness of prescribed 
grazing, invasive woodland removal, conservation easements, wet meadow 
and riparian restoration, and fence collision risk to wildlife. 
Findings are cataloged in 37 peer-reviewed publications within the 
scientific literature. Three of these publications evaluating 
prescribed grazing provide new scientific evidence that further 
supports the importance of ranching in sage-grouse conservation. This 
previously unknown information fills the void identified in recent 
reviews: ``This paucity of information highlights a need for more 
research that directly measures the effects of livestock grazing on 
grouse'' (Dettenmaier et al. 2017); ``We lack empirical data describing 
the relationship of grazing to sage-grouse . . .'' (Connelly 2014); and 
``empirical evidence supporting direct effects of livestock herbivory 
on sage-grouse habitat is lacking'' (Beck and Mitchell 2000).
    Maintaining 7 inches of grass height as hiding cover has been a 
prevailing management strategy for these ground nesting birds. But new 
findings that challenge this long-held tenet suggest that biased field 
methods are often to blame for incorrectly identifying grass height as 
a driver of nest success. Common practice for a generation of 
scientists, including myself, was to measure grass height around nests 
directly following nest hatch or failure without regard to timing of 
data collection. Field biologists typically delay data collection until 
nest fate is known for fear of nest abandonment by the incubating 
female. Scrutiny by Dan Gibson and colleagues at University of Nevada-
Reno reveal that allowing nest fate to dictate timing of data 
collection introduces bias into analyses because hatched nests are 
measured later than failed nests, giving spring grasses more time to 
grow (Gibson et al. 2015).
    Soon after, SGI scientists replicated the Gibson et al. (2015) 
study, and after correcting for this bias, median grass heights at 
hatched and failed nests were nearly identical, within the thickness of 
a penny of one another (0.05 inches) across re-analyzed data sets from 
Montana, Wyoming and Utah (Smith et al. 2018a). The implication for 
grazing management is that grass height may not be as crucial to nest 
success as previously thought. Moving forward, future studies should 
adjust methods to ensure unbiased grass height measures at predicted 
hatch date, and management guidelines that include grass height as an 
indicator of nesting habitat quality may need to be revisited.
    SGI scientists also have assembled a complete database for the 51 
sage-grouse studies for which published estimates of vegetation 
structure and nest survival are available. Preliminary analyses of 
these data suggest that nest survival is unrelated to grass height 
across the entire species range. Instead, sagebrush cover is a better 
predictor of hatching success. Despite a lack of evidence to support 
its nest concealing properties, grass height across the 51 studies 
averages 7.3 inches, which may explain the origin of a 7-inch grass 
height requirement in public policy. This ongoing analysis will include 
similar inquiries into the role of grass height in brood survival, 
although less data is available for this vital rate.
    Additionally, SGI scientists partnered with Montana Fish, Wildlife 
and Parks to conduct what is to date the most rigorous and long-term 
evaluation of livestock grazing and sage-grouse (Smith et al. 2018b,c). 
In its 8th year, this study in central Montana is evaluating how 
rotational grazing systems affect nesting habitat quality. From 2010-
12, 10 ranches voluntarily enrolled in SGI rotational grazing systems; 
individually planned systems each adhere to NRCS Montana Prescribed 
Grazing standards and the following criteria designed to benefit sage-
grouse: utilization rates 50 percent of current year's growth, 
duration of grazing 45 days, and timing of grazing changed by at least 
20 days each year. Nine of 10 landowners also voluntarily rested 20 
percent of their nesting habitat from grazing for 15 months on an 
annually rotating basis. We compared SGI-enrolled ranches to >20 non-
enrolled operations. Non-SGI lands encompassed a variety of grazing 
systems of which most were managed less intensively under season-long 
grazing or slower rotations through larger pastures, usually without 
annual changes in season of use.
    Findings from this evaluation show that nest survival was similar 
between SGI-enrolled versus non-enrolled ranches, and long-term nest 
success was consistent with that of a stable population. Resting 
pastures from grazing did not increase nest survival. Rotational 
systems and rest had negligible effects on grass heights which were 
within a half-inch of each other on SGI-versus non-enrolled ranches. 
Neither livestock presence nor indices of utilization were related to 
nest site selection or survival. Females instead selected nest sites 
based on abundance of sagebrush cover and distance from roads, whereas 
nest failure was driven primarily by severe weather.
    In the same study area, Dr. Hayes Goosey, Rangeland Entomologist at 
Montana State University, is evaluating whether grazing affects sage-
grouse food abundance by comparing insect numbers in rotationally 
grazed areas to those with no livestock grazing for over a decade. 
Greater abundance of insect foods preferred by sage-grouse chicks in 
grazed areas suggests that periodic disturbance by livestock may 
increase food availability to growing young (Hayes Goosey, personal 
communication, 5 July 2018).
    Taken together, new science does not support increased nest 
survival from rotational grazing systems or pasture rest. The need for 
tall grass as hiding cover throughout the range of sage-grouse may be 
overemphasized in public land grazing management guidelines and policy. 
A variety of locally appropriate grazing strategies that promote native 
perennial plant communities resilient to drought, exotic annual grass 
invasion, and wildfire may provide high quality grouse habitat. 
Management should instead focus on conserving areas of adequate shrub 
cover and preventing accumulation of roads and other human features 
that further fragment the remaining habitat provided by intact ranching 
operations.
    As an example of adaptive management at its best, the NRCS is using 
outcomes from 8 years of scientific inquiry to modify their approach to 
grazing management. Under their 528 Prescribed Grazing specifications, 
NRCS will no longer promote alterations in grazing plans to increase 
herbaceous hiding cover for nesting sage-grouse. NRCS offices also will 
no longer offer a higher incentive payment to landowners who elect to 
rest or defer a portion of enrolled acreage for this purpose. Because 
grazing management still matters for a host of ecological reasons, NRCS 
will continue implementing grazing plans that help keep ranchers 
profitable and productive, and the agency remains open to new and 
proven ways to reduce persistent threats to grouse through sustainable 
grazing.
    Decision makers find themselves at a crossroads in grazing 
management and sagebrush conservation. One path embraces the inherent 
variability of western rangelands, thus expanding decision-space by 
supporting adaptation to local circumstances. This approach recognizes 
ranchers as part of the solution, who if given flexibility, may prove a 
valuable partner in crafting innovative solutions to the most vexing 
threats facing ranching and grouse. The other path implements a uniform 
grass height stipulation, or some other overly specific metric, that 
lacks the scientific backing suggestive of success. The latter, 
commonly referred to as `precisionism' in the conservation sciences 
(Hiers et al. 2016), is strongly cautioned against. Such specificity 
has inadvertently homogenized habitats for other at-risk species by 
suppressing the system's natural variability.
    The historic range of sage-grouse has been reduced by half as 
grazing lands succumb to higher intensity land uses. Not all threats 
are created equal (Figure 1), and time lost arguing about grazing is 
better spent doubling down on the most large-scale pervasive threats 
that reduce usable space for ranching and wildlife. In the Great Basin, 
this means reducing frequency and severity of wildfire, and restoring 
affected watersheds at risk of invasion by cheatgrass and other exotic 
annuals. It also means ratcheting up mechanical removal of invading 
juniper trees, a practice known to increase water retention on grazing 
lands that space-starved grouse are quick to recolonize following 
restoration. East of the Rockies, common threats include subdivision, 
energy extraction and cropland cultivation. Keeping ranchers ranching 
is top priority because a single square mile of grazing land converted 
into new cropland negatively impacts sage-grouse in a landscape 12 
times that size (Smith et al. 2016).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


.epsFigure 1. Sage grouse face a number of threats across their range, 
  varying in the severity of their impact on populations (horizontal 
 axis) and their reversibility (vertical axis). Impacts from livestock 
  grazing are generally localized, minor, and reversible relative to 
those of cropland cultivation, energy development, housing, or invasion 
             by exotic annuals or pinyon-juniper woodlands.

    In closing, partners desire new tools that enable conservation to 
be applied at scales that match these large-scale threats. To meet this 
need, WLFW and University of Montana have merged machine learning and 
cloud-based computing with remote sensing and field data to provide the 
first-ever annual percent cover maps of rangeland plant types for U.S. 
grazing lands through time (1984 to 2017). Through an unprecedented 
blend of time, space, and scale, this new technology, dubbed the 
Rangeland Analysis Platform (RAP) will empower any user to visualize 
impacts of drought on perennial forage, evaluate effectiveness of 
cheatgrass treatments over time, identify areas in need of restoration 
following wildfire, and so much more (Figure 2). Powered by Google's 
Earth Engine, this mapping technology will be delivered to partners via 
a free online tool planned to launch September 2018 (https://
rangelands.app).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 .epsFigure 2. Bottom left is trends in annual percent cover of annual 
 forbs/grasses, perennial forbs/grasses, shrubs and bare ground (1984-
  2017) in an area being invaded by cheatgrass. Bars denote Dun Glenn 
fire and subsequent smaller fires within original fire perimeter. Image 
to right is a single year of the remotely sensed data for Dun Glenn and 
    subsequent fires. Triangle indicates colors corresponding to a 
 continuum of plant functional type percentages on the remotely sensed 
                                 image.

    Thank you for the opportunity to comment.

                scientific literature cited in testimony

Beck, J.L., and D.L. Mitchell. 2000. Influences of livestock grazing on 
sage grouse habitat. Wildlife Society Bulletin 28:993-1002.

Connelly, J. 2014. Federal agency responses to greater sage-grouse and 
the ESA: Getting nowhere fast. Northwest Science 88:61-64.

Dettenmaier, S.J., et al. 2017. Effects of livestock grazing on 
rangeland biodiversity: A meta-analysis of grouse populations. Ecology 
and Evolution 7:7620-7627.

Hiers, J.K., et al. 2016. The precision problem in conservation and 
restoration. Trends in Ecology and Evolution 31:820-830.

Smith, J.T., et al. 2016. Reducing cultivation risk for at-risk 
species: Predicting outcomes of conservation easements for sage-grouse. 
Biological Conservation 201:10-19.

Smith, J.T., et al. 18a. Phenology largely explains taller grass at 
successful nests in greater sage-grouse. Ecology and Evolution 8:356-
364.

Smith, J.T., et al. 2018b. Effects of rotational grazing management on 
nesting greater sage-grouse. Journal of Wildlife Management 82:103-112.

Smith, J.T., et al. 2018c. Effects of livestock grazing on nesting 
sage-grouse in central Montana. Journal of Wildlife Management: In-
Press.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much, Dr. Naugle. Our 
next witness is Mr. Erik Molvar. He is the Executive Director 
of the Western Watersheds Project from Laramie, Wyoming.

     STATEMENT OF ERIK MOLVAR, EXECUTIVE DIRECTOR, WESTERN 
              WATERSHEDS PROJECT, LARAMIE, WYOMING

    Mr. Molvar. Thank you, Chairman McClintock, Minority 
Ranking Member Tsongas, and members of the Committee. My name 
is Erik Molvar. I have the distinct honor to be the Executive 
Director of Western Watersheds Project, one of the West's most 
effective conservation groups. Our mission is to protect and 
restore western watersheds and wildlife across public lands.
    I am also, by training, a scientist. And my scientific 
publications are in the predation risk to herbivores and also 
in herbivore effects to their ecosystems.
    I would like to point out, for the benefit of the 
Committee, that the livestock grazing industry's effects on 
public lands are not only not universally positive, as might 
have been presented earlier in this testimony before the 
Committee, but indeed have many negative effects on many 
different resources on public lands.
    I want to talk first about the fact that, according to a 
Public Employees for Environmental Responsibility study in 
2012, some 40 percent of public lands are not meeting the 
Federal rangeland health standards. These are basic minimal 
standards for the health of the rangelands that almost half of 
our public lands permittees are not meeting, as a target. This 
is an indicator that these problems are widespread.
    What does that mean, in terms of the actual resources on 
our public lands? Well, certainly, one of the most important 
impacts of livestock grazing are impacts to native fishes. 
Cattle were evolved in the boggy forests of Northern Europe. 
They are ill-suited and maladapted to the arid Western 
rangelands that you find in our western states.
    Consequently, when you put them out on the public lands in 
these arid areas, they tend to concentrate in streamside 
riparian areas and heavily graze the vegetation along 
streamsides, denude the banks of the streams, and wallow in the 
streams themselves. This leads to a number of problems.
    First, it causes the breakdown of stream banks. And when 
the stream banks break down, the profile of the stream turns 
from deep and narrow to wide and shallow. That means warmer 
water temperatures.
    Second, the livestock denude the grass and the shrubs from 
beside the stream banks that are important to shade the stream 
and keep them cool.
    Finally, when they are wallowing in the streams, livestock 
actually trample the redds, or the nests of salmon, steelhead, 
and trout, and kill the eggs.
    So, these are major problems for cold-water fishes that are 
native to the western United States, and a significant 
ecological impact that is very widespread in its nature. You 
can look at the number of endangered or threatened runs or 
populations of trout and salmon in the West to see that 
livestock grazing is having a significant negative effect on 
our fish fauna.
    Second, you have livestock impacts on the native ungulates. 
And, of course, cattle graze very heavily in western 
rangelands. And the BLM typically has a 50/50 mix of livestock 
to native wildlife, in terms of allocation for forage. So, if 
the cattle are taking off 50 percent of the grass on public 
lands, that means only 50 percent is left for wildlife, for 
insects, for elk, for deer, even for rabbits and mice. And when 
you take all of these different consumers of native grasses 
down, you don't have enough grass left for the grass to survive 
from year to year.
    Consequently, what we are doing on our western rangelands 
is we are converting them from the native perennial bunch 
grasses that Dr. Naugle talked about being so important to 
sage-grouse, and you are converting that to non-native invasive 
weeds such as cheatgrass. Cheatgrass is the scourge of the 
West, and is the cause of many of the wildfire problems that we 
see today. And livestock grazing is the single most important 
mediator of that.
    Livestock grazing tramples the biological soil crusts that 
are the natural defenses of the land against cheatgrass, and 
livestock grazing takes out the native perennial bunch grasses 
that, when they are mature and healthy, are the appropriate 
competitors to cheatgrass, and can exclude cheatgrass.
    In areas that don't have any livestock grazing for long 
periods of time, like the Dugway Proving Ground in Utah, not 
only do you not have cheatgrass, but when you do an experiment, 
as was done recently to try to introduce cheatgrass, you can't 
get it to grow because the native healthy ecosystems have a 
natural immunity to it.
    With a heavy grazing of livestock, what we see is that we 
are converting our native perennial rangelands to weedy 
invasive annual species that have little ecological value and 
poor habitat values for wildlife.
    Thank you very much.

    [The prepared statement of Mr. Molvar follows:]
    Prepared Statement of Erik Molvar, Executive Director, Western 
                           Watersheds Project
    My name is Erik Molvar, and I am Executive Director of Western 
Watersheds Project (WWP), a non-profit conservation group that 
advocates for the protection and restoration of wildlife and watersheds 
throughout the western United States. WWP specializes in solving 
environmental problems caused by livestock grazing on public lands.
    I hold a Master of Science in Wildlife Management from the 
University of Alaska Fairbanks, where I studied moose behavior and 
ecology as part of the Institute for Arctic Biology. I published my 
scientific findings in a number of peer-reviewed journals, including 
studies on moose foraging behavior and the influence of moose foraging 
on willows and on ecosystem dynamics. In addition, I am author or 
editor-in-chief of 17 books that focus on western public lands. Prior 
to becoming a professional conservationist, I worked seasonally for the 
U.S. Forest Service and for the U.S. Army Corps of Engineers surveying 
stream habitats for salmon and steelhead in northern Idaho and barging 
juvenile salmon and steelhead down the Snake and Columbia Rivers to get 
them past dams that otherwise obstruct their passage.
        the impacts of livestock grazing on western public lands
    The grazing of domestic livestock on Federal grazing leases 
represents the most widespread cause of environmental impacts on 
western public lands. While oil and gas development garners the 
greatest amount of media attention, as it represents a spectacular 
environmental train wreck, livestock grazing is like a slow and 
invisible cancer that is insidiously and inexorably killing native 
ecosystems over vast areas.
    In an analysis of Bureau of Land Management (BLM) Land Health 
Assessments, Public Employees for Environmental Responsibility (PEER) 
found that as of 2012 more than 40 percent of BLM livestock grazing 
allotments were failing to meet rangeland health standards.\1\ In the 
wake of this analysis, BLM began to combine grazing leases ``not 
meeting, but moving toward'' rangeland health standards with those 
actually meeting land health standards, frustrating the public's 
ability to discern the degree to which BLM-managed livestock grazing on 
public lands is causing environmental problems.
---------------------------------------------------------------------------
    \1\ https://www.peer.org/campaigns/public-lands/public-lands-
grazing-reform/blm-grazing-data. html.
---------------------------------------------------------------------------
    It is also notable that the BLM's own conclusions are sometimes 
biased to hide land health problems. For example, in WWP's Duck Creek 
(Utah) allotment appeal, after more than 200 hours of expert testimony 
the Office of Hearings and Appeals ruled that BLM's determination that 
this allotment was meeting land-health standards was in fact false. 
While Utah appears to be mostly meeting land health standards according 
to PEER's review of BLM's data, having traveled extensively through 
Utah, I have found that land health and vegetation condition in Utah is 
worse in comparison with other western states, not better.
                        impacts to native fishes
    Native wildlife species (such as bison and elk) are adapted to the 
arid steppes, deserts, and grasslands of the western United States, but 
cattle evolved in lush, high-rainfall environments in northern Europe 
and are poorly adapted to arid environments. As a consequence, cattle 
concentrate along streamside (or ``riparian'') habitats, and livestock-
induced damage disproportionately falls within these highly sensitive 
and ecologically important areas. On the Great Plains, 77 percent of 
bird species depend on riparian habitats for a key part of their life 
cycles.\2\ In desert environments, free-flowing springs and streams 
take on even greater importance.
---------------------------------------------------------------------------
    \2\ Rich 2002. Using breeding land birds in the assessment of 
western riparian systems. Wildl. Soc. Bull. 30: 1126-1139.
---------------------------------------------------------------------------
    Livestock grazing along streamsides denudes the tall grass and 
shrubs that otherwise overhang and shade free-flowing streams that 
support trout and salmon. At the same time, streambank trampling by 
livestock breaks down streambanks, causing deep, narrow stream channels 
to degrade into wide, shallow riffles. Both of these factor into the 
loss of instream cover that trout and salmon require to hide from and 
escape their natural predators. In addition, the conversion of deep, 
narrow, shaded streams to wide, shallow streams exposed to the sun has 
the effect of raising water temperatures.
    Native coldwater fishes (i.e., trout, salmon, and steelhead) take 
the brunt of these impacts, and livestock grazing represents the single 
greatest impact on salmonid habitats across much of the West. Trout and 
salmon require cold, clear waters. Water temperatures above 80 +F can 
be fatal to trout and salmon, and to the extent that livestock impacts 
to streams result in higher water temperatures, these can extirpate 
trout and salmon populations.
    The concentration of cattle along streamside habitats results not 
only in streambank collapse but in radically accelerated bankside 
erosion. This raises the amount of suspended silt in streams, 
interfering with the ability of trout and salmon, which are visual 
predators, to feed on insects and smaller fishes. All trout and salmon 
spawn in depressions (called ``redds'') that they dig in stream gravels 
to deposit their eggs. The survival of the eggs is dependent on the 
free flow of oxygenated water through the gravels, and to the extent 
that silt from streamside erosion associated from streambank trampling 
by livestock clogs the interstices between the gravels, trout and 
salmon eggs are smothered and are unable to survive. This can lead to 
the failure of entire year-classes of trout and salmon. In addition, 
cattle wallowing directly in the streamcourse, a common occurrence on 
hot summer days, trample redds and crush trout and salmon eggs.
    Livestock grazing and trampling impacts have contributed to the 
need to list several species and/or runs of native salmonids under the 
Endangered Species Act, including the Columbia River spring and fall 
chinook salmon, Columbia River steelhead, bull trout, and Lahontan 
cutthroat trout. In addition, stream habitat damage caused by domestic 
livestock (particularly cattle) is responsible for the decline in 
Colorado River cutthroat, greenback cutthroat, and Bonneville cutthroat 
trout, which are likely to become candidates for ESA listing in the 
future thanks in significant measure to the impacts of domestic 
livestock. This deterioration of clean, cold stream habitats and loss 
of native trout and salmon populations has had serious negative impacts 
on recreational fishing on western public lands, to the detriment of 
public enjoyment of these lands.
 livestock grazing on public land is a major cause of stream pollution
    Beyond its impacts to native fishes inhabiting streams on public 
lands, domestic livestock (particularly cattle) are a major cause of 
fecal coliform contamination in streams on public lands. Cattle have 
been bred to eat and gain weight at accelerated rates to maximize beef 
production, and as a result cattle manure (which like all manure is 
high in E. coli bacteria) are large with high bacterial loads. Cattle 
also concentrate along and wallow in streams, in contrast to native 
wildlife which range widely to forage, and cattle thereby concentrate 
their manure along watercourses. Based on WWP water quality sampling, 
E. coli levels in Wyoming streams are commonly 2 to 10 times higher 
than Clean Water Act standards for human contact. This means that for 
affected streams, anglers wading in the water, or children playing in 
the water, are at an elevated risk for E. coli poisoning, which is a 
serious health risk and in some cases can be fatal. The Wyoming 
Department of Environmental Quality recently downgraded 76 percent of 
streams from ``primary contact'' levels of monitoring to ``secondary 
contact'' standards, to cut down on Clean Waters Act violations. 
However, this administrative change does not change the reality that 
public lands visitors commonly recreate along streams, and continue to 
be exposed to these high levels of biohazard as a result of cattle 
defecating in and beside streams.
              impacts to soils and vegetation communities
    Like all herbivores, domestic livestock eat plants, and the heavy 
intensity of livestock grazing has an impact on vegetation communities. 
High concentrations of domestic livestock increase soil compaction, 
erosion, and loss of overall productivity of the land. Stocking rates 
on public lands as approved by the BLM and Forest Service are typically 
far too high to maintain healthy, functioning native plant communities 
and high soil productivity. Frequently, Federal agencies apply a ``take 
half, leave half'' principle, and grazing leases commonly allow 50 
percent of the annual forage plant production to be removed by 
livestock grazing. This is a very high intensity of livestock grazing, 
and fails to account for additional grazing by large native herbivores 
such as elk and mule deer, grazing by rabbits and even voles (which can 
be abundant during population surges), and grazing by insects such as 
grasshoppers and Mormon crickets, which can be substantial during their 
cyclic population irruptions. Federal agencies may also respond slowly 
to reduce livestock numbers during drought, which is historically so 
common that it represents the rule in the arid West rather than the 
exception, with the result that overgrazing by livestock creates long-
term damage to the productivity of the range. Overgrazing exacerbates 
climate change by depleting the ability of cold desert steppes and 
grasslands to sequester carbon, by not only decreasing bunchgrass 
foliage and conversion to cheatgrass, but also by the long-term loss of 
bunchgrass root biomass.\3\
---------------------------------------------------------------------------
    \3\ Meyer 2011. Is climate change mitigation the best use of desert 
shrublands? Nat. Res. Env. Iss. 17:2.
---------------------------------------------------------------------------
    In the Great Basin and on the Colorado Plateau, and across much of 
the remainder of the West, biological soil crusts are the key 
ingredient to soil productivity. Biological soil crusts are critical 
for the retention of soil moisture, prevent erosion, fix nitrogen (a 
key plant nutrient) from the atmosphere into the soil where it becomes 
available to plants, and provide a strong degree of immunity against 
invasive weeds, particularly cheatgrass. Livestock trample biological 
soil crusts, with weight loading on hooves and shear forces that make 
them highly destructive. Once destroyed, soil crusts can take up to 250 
years to recover to their natural ecological functions.\4\ The Great 
Basin and Colorado Plateau were not originally inhabited by large herds 
of bison or other herbivores, and these fragile soil crusts therefore 
evolved in the absence of widespread trampling. The introduction of 
cattle and sheep into these areas has resulted in catastrophic impacts 
to biological soil crusts that desertifies the ecosystem and results in 
permanent loss of soil and vegetation productivity.
---------------------------------------------------------------------------
    \4\ Belnap 1995. Surface disturbances: Their role in accelerating 
desertification. Env. Monitor. Assess. 37:39-57.
---------------------------------------------------------------------------
        livestock spread noxious weeds, particularly cheatgrass
    Livestock are the primary means by which invasive weeds, notably 
cheatgrass, are introduced and spread in native ecosystems. Scientists 
have traced the invasion of cheatgrass back to contaminated grain 
shipments from Eurasia, and this non-native weed then spread along 
railway lines, and from there moved out across the Great Basin and 
Columbia Basin with great rapidity, carried by domestic livestock. 
Livestock overgrazing paves the way for cheatgrass, which specializes 
in colonizing disturbed habitats, by suppressing or eliminating the two 
primary defenses that western steppes and grasslands have against 
cheat: native perennial (multi-year) bunchgrasses, and biological soil 
crusts. Cheatgrass invasions began in the Great Basin and the Columbia 
Basin in the 1800s and reached crisis proportions by the 1930s, and the 
overgrazing that established cheatgrass as a major environmental 
problem in those years continues today. As a result, cheatgrass is 
expanding even in high-elevation areas where it has heretofore been 
scarce.\5\
---------------------------------------------------------------------------
    \5\ Mealor et al. 2012. Postfire downy brome (Bromus tectorum) 
invasion at high elevations in Wyoming. Inv. Plant Sci. Manage. 5:427-
435.

    Native perennial bunchgrasses and biological soil crusts are the 
key natural defenses against cheatgrass, yet domestic livestock deplete 
or destroy both defense systems, all the while creating the disturbance 
that accelerates cheatgrass invasion. Perennial bunchgrasses are 
preferred forage for both livestock and native wildlife, and are known 
as ``decreasers'' because they dwindle early on as grazing intensity 
increases. Livestock also trample and eliminate biological soil crusts, 
which under natural conditions retard the germination and seedling 
establishment of cheatgrass. Once cheatgrass invades the understory of 
sagebrush habitat types, it accelerates range fire frequency because 
cheatgrass dies and becomes tinder-dry after an initial few weeks of 
growth and seed-set. Normal fire-return intervals in basin sagebrush 
communities averages 196 years, but when cheatgrass takes over fire 
frequency doubles to every 78 years.\6\ The resulting fires entirely 
eliminate sagebrush (because sagebrush does not stump-sprout), a 
disaster for sage-grouse and pronghorns, and set the stage for a 
cheatgrass monoculture by creating a disturbance that colonizing 
cheatgrass are highly adapted to fill. Importantly, in areas where 
livestock are absent, cheatgrass is a minor component, and native 
perennial bunchgrasses remain dominant, fires eliminate the sagebrush 
but return the area to native perennial bunchgrass instead of 
cheatgrass monoculture. This illustrates definitively that livestock 
grazing, not fire, is the key factor spreading cheatgrass infestations. 
Increasing fire frequency is an after-effect of cheatgrass invasion, 
not the cause.
---------------------------------------------------------------------------
    \6\ Balch et al. 2013. Introduced annual grass increases regional 
fire activity across the arid western USA (1980-2009). Global Change 
Biol. 19:173-183.

    At low to no livestock grazing, native grasses and forbs remain 
dominant, and fire returns the system to native grasses; at moderate 
levels of livestock grazing, habitats experience a decline in native 
perennial grasses; with heavy livestock grazing, perennials are 
replaced by cheatgrass, and fire creates a negative feedback loop, 
returning the areas to cheatgrass monoculture. Livestock grazing where 
50 percent of the annual forage productivity is allocated to livestock 
would fall into the ``heavy'' category, whereas grazing levels limited 
to 25 percent utilization for sage-grouse conservation fall into the 
``moderate'' level of grazing.\7\ Thus, even moderate levels of 
livestock grazing are harmful to native plant communities (and 
advantageous to cheatgrass).
---------------------------------------------------------------------------
    \7\ McIver et al. 2010. The Sagebrush Steppe Treatment Evaluation 
Project (SageSTEP): A Test of State- and Transition Theory. USDA Forest 
Service General Technical Report RMRS-GTR-237, Fort Collins, CO: Rocky 
Mountain Research Station, 16 pp.
---------------------------------------------------------------------------
  livestock are a cause of widespread sage-grouse population declines

    Livestock grazing is a major contributor to the decline of sage-
grouse across the western United States. Whereas oil and gas 
development has received far greater attention as a cause of sage-
grouse population crashes in areas such as the Upper Green River Valley 
and Powder River Basin of Wyoming that have suffered from heavy 
industrial development, sage-grouse populations in areas with few roads 
and developments and zero energy and mining activity have also been 
declining, and livestock grazing is the major human-caused impact in 
these areas that could possibly be responsible from the deviation of 
large, healthy sage-grouse populations from their natural abundance 
that occurred naturally prior to the arrival of Euro-American 
settlement. Naturalist George Bird Grinnell characterized the original 
abundance of sage-grouse as follows:

        In October, 1886, when camped just below a high bluff on the 
        border of Bates Hole, in Wyoming, I saw great numbers of these 
        birds, just after sunrise, flying over my camp to the little 
        spring which oozed out of the bluff 200 yards away. Looking up 
        from the tent at the edge of the bluff above us, we could see 
        projecting over it the heads of hundreds of the birds, and, as 
        those standing there took flight, others stepped forward to 
        occupy their places. The number of Grouse which flew over the 
        camp reminded me of the old time flights of Passenger Pigeons 
        that I used to see when I was a boy. Before long the narrow 
        valley where the water was, was a moving mass of gray. I have 
        no means whatever of estimating the number of birds which I 
        saw, but there must have been thousands of them.\8\
---------------------------------------------------------------------------
    \8\ Grinnell 1910. American game bird shooting. New York, NY: 
Forest and Stream Publishing Co., 558 pp.

    The habitats of both greater and of Gunnison sage-grouse have been 
degraded by domestic livestock. For example, in the Gunnison Basin, 
fully two-thirds of livestock grazing allotments are failing to meet 
land-health standards for rare native species including Gunnison sage-
grouse.
    The best-understood impact of livestock grazing on sage-grouse is 
the reduction of grass cover between sagebrush shrubs to levels that 
unnaturally expose sage-grouse to their natural predators. Across the 
vast majority of the sage-grouse range, the scientific consensus is 
that 7 inches of residual grass height must be maintained in breeding 
and nesting habitats to provide grouse the cover they need to 
survive.\9\ In the Northern Plains, where sagebrush are much sparser 
and afford less hiding cover, 10.2 inches of residual grass height is 
required to furnish sufficient hiding cover for grouse.\10\
---------------------------------------------------------------------------
    \9\ Hagen et al. 2007. A meta-analysis of greater sage-grouse 
Centrocercus urophasianus nesting and brood-rearing habitats. Wildlife 
Biology 13:42-50.
    \10\ Kaczor et al. 2011. Nesting success and resource selection of 
greater sage-grouse. Studies in Avian Biology 39:107-118.
---------------------------------------------------------------------------
    While maintaining 7 inches of grass height is a habitat objective 
for livestock grazing in Federal sage-grouse plan amendments, this 
commitment has been undermined by a failure of BLM and Forest Service 
to apply it in grazing permit renewals and Annual Operating 
Instructions (AOIs). In the first year after the final decisions were 
signed on September 22, 2015 until October 7, 2016, 70 percent of all 
grazing permits in sage-grouse habitat were rubber-stamped for another 
10-year term under their previous terms and conditions, without 
revision or analysis. The numbers of AUMs reinstated is even higher: 81 
percent of all AUM permitted in sage-grouse habitat in the last year 
were renewed without any analysis and under the existing management 
regimes without including sage-grouse habitat objectives (including the 
7-inch grass height objective). An Instruction Memorandum issued to the 
Forest Service delays the implementation of sage-grouse habitat 
objectives in that agency's AOIs, which were to be phase in for the 
2018 grazing season under the current sage-grouse plan amendments. 
Furthermore, this measure is slated to be stripped from the plan 
amendments under the Draft EIS proposals for Nevada/California, Idaho, 
and Wyoming. Thus, it appears that Federal sage grouse protections from 
irresponsible types of livestock grazing are currently being ignored 
and are slated to be dismantled.
    Livestock infrastructure also has major negative impacts on sage-
grouse. Fenceposts and corrals offer perches for raptors, and fences 
are a deadly collision risk for low-flying grouse. One 5-mile stretch 
of fence in Wyoming killed 146 grouse over a year and a half.\11\ 
Marking barbed-wire fence for visibility reduces deadly grouse 
collisions only by 57 to 70 percent, allowing 30 to 43 percent of the 
fatalities of unmarked fences to continue.\12\ Considering the vast 
mileage of barbed-wire fence on western public lands, the overall 
fatality level is massive.
---------------------------------------------------------------------------
    \11\ Christiansen, T. 2009. Fence Marking to Reduce Greater Sage-
grouse (Centrocercus urophasianus) Collisions and Mortality near 
Farson, Wyoming--Summary of Interim Results. WGFD Report, 2 pp.
    \12\ Ibid.; also Van Lanen et al. 2017. Evaluating efficacy of 
fence markers in reducing greater sage-grouse collisions with fencing. 
Biol. Conserv. 213:70-83.
---------------------------------------------------------------------------
              impacts to big game habitats and populations
    Domestic livestock are direct competitors for forage with native 
wildlife species, and the degree of competitive intensity varies with 
the degree of dietary overlap. Cattle graze preferentially on grasses, 
but will also browse shrubs, while domestic sheep graze more on forbs 
(broadleaf wildflowers and shrubs) and to a lesser degree than cattle 
on grasses. One cow-calf pair eats a similar amount of forage as two 
elk or eight mule deer, and therefore would be estimated to displace 
that number of game animals.\13\ Domestic sheep compete most directly 
with mule deer and pronghorns. I have personally seen a Federal NEPA 
document declaring that the project area had enough forage to sustain 
100 percent of the livestock and 75 percent of the wildlife, a tacit 
admission that overgrazing was authorized. To the extent that mule deer 
and elk populations are substantially smaller today than they were when 
Lewis and Clark explored the West, competition with cattle and sheep is 
a driving factor holding big game populations at unnaturally low 
levels.
---------------------------------------------------------------------------
    \13\ Ogle and Brazee. 2009. Estimating initial stocking rates. USDA 
NRCS Tech. Note Range No. 3, 39 pp.
---------------------------------------------------------------------------
domestic sheep grazing on public lands causes deadly disease outbreaks 
                              in bighorns
    Domestic sheep are carriers of multiple pathogens that cause 
catastrophic epidemics and die-offs in bighorn sheep when the two 
species come into contact with each other. Mannheimia haemolycta 
(formerly called Pasteurella) and Mycoplasma ovipneumoniae cause a form 
of deadly pneumonia that can wipe out an entire bighorn sheep herd 
following a single nose-to-nose contact between domestic sheep and 
bighorns.\14\ This is a relatively high-probability occurrence because 
the two species express curiosity toward each other when in close 
proximity. In some cases, bighorn sheep herds have become infected and 
decimated by domestic sheep diseases, and in other cases state agencies 
have eliminated thriving bighorn sheep herds to prevent disease 
transmission in cases where the two species have been allowed to come 
into contact. Due to this extreme disease transmission risk, domestic 
sheep should be grazed 15 miles or more away from known occupied 
bighorn sheep habitat, which accounts for the propensity of young male 
bighorns to wander in search of mates.
---------------------------------------------------------------------------
    \14\ Schommer and Woolever 2001. A process for finding management 
solutions to the incompatibility between domestic and bighorn sheep. 
USDA Forest Service report, 64 pp.
---------------------------------------------------------------------------
vegetation manipulation projects to increase cattle forage are harmful 
                              to wildlife
    There are many types of vegetation projects to manipulate native 
vegetation in an attempt to increase forage for domestic livestock, and 
which have caused significant problems for native wildlife. Some of 
these projects have been proposed in the name of wildlife habitat 
improvements, even though scientific support for wildlife habitat 
values has been scant, or even contradictory.
    Juniper removal projects have been proposed for sage-grouse or mule 
deer habitat improvements. For sage-grouse, projects that remove 
junipers from sagebrush grasslands in the early stages of juniper 
expansion, increased habitat values for sage-grouse are achievable. In 
cases where juniper removal targets mature or old-growth stands, which 
have little to no grass or shrub understory, the result is more likely 
to be the creation of a cheatgrass invasion hotspot, due to the 
propensity of this invasive weed to colonize disturbed areas. This does 
more harm than good. There is no valid scientific evidence that juniper 
or pinyon removal benefits mule deer, as this species benefits from the 
hiding cover aspect of juniper and pinyon woodlands.
    Mechanical destruction of sagebrush, and even the use of herbicides 
such as tebuthiuron, has been advanced as a means to improve sage-
grouse habitat. The Deseret Ranch (managed primarily for livestock 
grazing and trophy elk hunting) initially reported an increasing 
population of sage-grouse compared to other Rich County grouse 
populations in response to mechanical removal of sagebrush using a 
Dixie harrow. This touched off a welter of copycat projects, but 
subsequently the Deseret Ranch sage-grouse population plummeted 
compared to surrounding populations, and as it stands now, Rich County 
sage-grouse populations inside and outside the Deseret Ranch have an 
overall population decline that is similar. Thus, this practice should 
be discredited as ineffective. Tebuthiuron treatments in New Mexico and 
Texas have been associated with declines in the lesser prairie chicken, 
which currently is on the verge of Endangered Species listing.
    Perhaps the most ecologically damaging habitat treatment type is 
the introduction of non-native species, such as crested wheatgrass or 
forage kochia, either along fuelbreaks or in large-scale plantings to 
increase forage for domestic livestock. Large-scale fuelbreak creation 
of this type threatens to fragment and degrade remaining large tracts 
of sagebrush that sag-grouse require to survive. Crested wheatgrass is 
known to invade surrounding habitats from plantings, and completely 
destroys the habitat value of the land for almost all native 
wildlife.\15\
---------------------------------------------------------------------------
    \15\ E.g., Reynolds and Trost 1980. The response of native 
vertebrate populations to crested wheatgrass planting and grazing by 
sheep. J. Range Manage. 33:122-125; Connelly et al. 1991. Sage grouse 
use of nest sites in southeastern Idaho. J. Wildl. Manage. 55:521-524.
---------------------------------------------------------------------------
      livestock grazing to combat cheatgrass is counterproductive
    Cheatgrass is one of the least desirable forage plants from the 
standpoint of herbivores (including domestic livestock), so when cattle 
are released onto a range invaded by cheatgrass, they are likely to 
concentrate their foraging on remnant native perennial bunchgrasses 
instead of grazing on the cheatgrass. This further depletes the ability 
of native grasses to persist and to compete with cheatgrass, and 
further moves the landscape toward an unnaturally fire-prone cheatgrass 
monoculture. When cheatgrass dries up, it becomes non-nutritious, and 
their spiny seedheads pierce the mouthparts of herbivores, which avoid 
it as a forage species. Cheatgrass is green and palatable to livestock 
for only 2 weeks or so in the spring, yet it is unheard of that BLM 
land managers limit livestock grazing in a given allotment to such a 
short window. As a result, even in cases where livestock grazing could 
reduce the standing crop of cheatgrass (and therefore flammability) in 
the short term, it actually increases and further entrenches cheatgrass 
infestations (and therefore fire risk) over the long term.
    Long-term rest from livestock grazing offers the best option for 
returning the land to a healthy and productive state on lands where 
native perennial grasses remain. On the Dugway military proving grounds 
in Utah, where livestock have not grazed for 50 years, cheatgrass is 
almost absent, and experimental introductions failed to establish.\16\ 
The recovery of native vegetation in the Hart Mountain National 
Wildlife Refuge, closed to livestock grazing in 1991, has been 
spectacular.\17\
---------------------------------------------------------------------------
    \16\ Meyer et al. 2001. Factors mediating cheatgrass invasion in 
intact salt desert shrubland. Pp. 224-232 in Shrubland ecosystem 
genetics and biodiversity: Proceedings, USDA RMRS-P-21.
    \17\ Batchelor et al. 2015. Restoration of riparian areas following 
the removal of cattle in the northwestern Great Basin. Env. Manage. 
55:930-942.
---------------------------------------------------------------------------
livestock-driven wildlife-killing programs are ecologically destructive 
                             and pointless
    The agriculture industry in general, and western public lands 
ranchers in particular, are notorious for their propensity to kill 
every species of native wildlife they find inconvenient to their 
agricultural operations. Federal, state, and county extension programs 
routinely target native wildlife including predators (notably coyotes, 
wolves, and bobcats) and rodents (particularly prairie dogs and 
beavers) that are believed by farmers and ranchers to have a negative 
effect on their economic bottom line. USDA's Wildlife Services program 
alone killed more than 2.7 million animals in 2016,\18\ more than half 
of which were native wildlife species, at the behest of the agriculture 
industry. Among this agency's tally of death were 77,403 coyotes, 3,931 
foxes, 535 river otters, and 21,182 beavers--which is significant 
because beavers are considered a keystone species, ecosystem engineers 
that create healthy stream and riparian habitats and increased 
vegetation in the watersheds they inhabit. Any native species are 
classified by state agencies as `varmints' with no seasons, bag limits, 
or reporting requirements for their killing and so there is no way to 
estimate the number of native wildlife species killed directly by 
ranchers through shooting and poisoning. Given the strong public 
interest in maintain healthy populations of native wildlife and healthy 
functioning ecosystems on public lands, the killing of native wildlife 
associated with public-lands ranching should be legally forbidden. If 
private agricultural operations want to impose their livestock on 
Federal public lands, the least they can do is to run their operations 
in a way that is compatible with maintaining natural population levels 
of native wildlife.
---------------------------------------------------------------------------
    \18\ https://www.aphis.usda.gov/wildlife_damage/pdr/PDR-
G_Report.php?fy=2016&fld=&fld_val=.
---------------------------------------------------------------------------
  public lands livestock grazing is a negligible contributor to local 
                           western economies
    Far from being an important part of rural western economies, 
public-lands ranching makes a contribution that, while it may be an 
important (although usually not the only) source of income for ranchers 
directly engaged in it, is at the statewide level a rather negligible 
contributor to jobs and income in western states. Large metropolitan 
areas are by far and away the overwhelming drivers of western state 
economies, but even rural counties with little urban development, the 
economic significance of livestock production is far less than the 
spatial expanse of lands dedicated to it would suggest. In a 2002 
analysis by noted western economist Dr. Thomas M. Power, livestock 
grazing on Federal lands makes up less than 0.1 percent of the 
economies of the western states where it occurs.\19\
---------------------------------------------------------------------------
    \19\ Power 2001. Taking stock of public lands grazing: An economic 
analysis. Pp. 263-269 in Welfare Ranching, G. Wuerthner and M. 
Matteson, eds. Washington: Island Press.
---------------------------------------------------------------------------
    Harney County, Oregon is fairly representative of a rural western 
county with no large urban centers. According to Headwaters Economics' 
Economic Profile System, farming (which includes ranching) makes up 
only 1 percent of the wage income in Harney County, and the combined 
sectors of agriculture, forestry, fishing, and hunting made up 8.8 
percent of the jobs in Harney County in 2016.
    I live in Wyoming, which is often referred to as ``the Cowboy 
State,'' but in 2017 farming and ranching combined tallied $617 
million, making up only 1.5 percent of the state's Gross Domestic 
Product.\20\ In 2012 it accounted for 4 percent of the state's full- 
and part-time employment.\21\ Meanwhile, six National Park units in 
Wyoming received almost 7.5 million visitors in 2017, spending an 
estimated $882 million in Wyoming.\22\ And this excludes Forest Service 
and BLM lands, which were a major tourism contributor to Wyoming in 
2017, particularly due to the total eclipse of the sun, estimated to 
have produced $63.4 million by itself according to the Wyoming 
Department of Tourism. Clearly, public lands are more valuable for 
public enjoyment than for providing livestock forage.
---------------------------------------------------------------------------
    \20\ Wyoming Dept. of Administration and Information, Economic 
Analysis Division, Wyoming GDP Report 2017, http://eadiv.state.wy.us/
i&e/WyoGDP97_17.htm.
    \21\ Liu, W. 2013. Wyoming Economic and Revenue Trend. Economic 
Analysis Division, State of Wyoming.
    \22\ Cullinane et al. 2018. 2017 National Park visitor spending 
effects: Economic contributions to local communities, states, and the 
nation. Natural Resource Report NPS/NRSS/EQD/NRR-2018/1616. National 
Park Service.
---------------------------------------------------------------------------
    As of 2015, there were 21,916 permit holders grazing commercial 
livestock on public lands managed by the BLM and Forest Service. 
Incorporating NCBA estimates that 40 percent of cattle in western 
public land states spending some time on Federal public land, there are 
about 1.75 million cattle using public land, out of a national herd of 
90 million, meaning that only 1.9 percent of America's cattle spend any 
time on western Federal lands.\23\ By way of comparison, some 290 
million people visit Federal public lands each year across 11 western 
states, based on aggregated data from Federal agencies.\24\ Examining 
only rural (nonmetropolitan) western counties, the counties with the 
greatest proportions of protected public lands have shown the greatest 
economic growth, job growth, and population growth.\25\ Thus, if all 
domestic livestock using western public lands were to magically vanish 
tomorrow, it would likely be received as an economic crisis by the beef 
producers directly involved, but at the national scale, consumers would 
not notice the difference, and the blip in state economies would be 
lost in the standard-of-error noise.
---------------------------------------------------------------------------
    \23\ The Nature Conservancy 2016. U.S. Beef Supply Chain: 
Opportunities in fresh water, wildlife habitat, and greenhouse gas 
reduction.
    \24\ http://westernpriorities.org/wp-content/uploads/2018/03/290-
Million-Visits-Report.pdf.
    \25\ Lorah and Southwick 2003. Environmental protection, population 
change, and economic development in the rural western United States. 
Population and Environment 24:255-272; Rasker et al. 2013. The effect 
of protected Federal lands on prosperity in the non-metropolitan West. 
Journal of Regional Analysis and Policy 43:110-122.
---------------------------------------------------------------------------
     livestock lessees graze public lands at bargain-basement rates
    Federal agencies have the discretion to lease public lands for 
private livestock grazing, which is supposed to be managed within the 
sideboards of multiple-use legal mandates that obligate the BLM and 
Forest Service to balance commercial uses against public recreation, 
wildlife habitat conservation, and watershed protection. Grazing on 
Federal lands is defined by regulation as a privilege, not a right, and 
holding grazing lease does not convey a property right. Although 
public-lands ranchers will at times use a grazing permit as collateral 
against a bank loan, a practice of questionable legality. Instead, 
holding a Federal grazing permit enters a rancher into a tenant-
landlord relationship with the U.S. Government which manages Federal 
public lands in a trust relationship on behalf of the American people.
    On Federal lands leased for livestock grazing, rates are charged 
per Animal Unit Month (AUM), called a Head Month on Forest Service 
lands, which is defined as one cow-calf pair or five sheep. Federal 
grazing fees began at $1.23 per AUM in 1966, and currently stand at 
$1.41 per AUM. Using an inflation calculator, the 1966 grazing rate 
translates as $9.66 in 2018 dollars. Meanwhile, the average rate for 
leasing private pastureland in 16 western states was $22.60 per head in 
2010.\26\ In FY 2015, some $79 million was appropriated to BLM for its 
rangeland management program, of which $36.2 million was expended for 
the administration of livestock grazing on BLM lands; the agency 
collected $14.5 million in grazing fees (at $2.11 per AUM) that same 
year.\27\ As a result, BLM's public lands grazing program ran a deficit 
in 2015, costing the taxpayers at least $21.7 million, and arguably 
$64.5 million, each year in subsidies to public lands ranchers.
---------------------------------------------------------------------------
    \26\ Grazing Fees: Overview and Issues. Congressional Research 
Service Report RS21232, September 29, 2018.
    \27\ Ibid.
---------------------------------------------------------------------------
    In 2008, as a member of the Laramie City Council, I was appointed 
as the Council representative to the Monolith Ranch Advisory Committee, 
and personally tasked as part of the city's team to negotiate grazing 
lease terms with a private rancher to graze his cattle on the city's 
Monolith Ranch property. This ranch was purchased for the purpose of 
perfecting water rights for municipal use. We negotiated a rate of 
$14.44 per head-month for summer grazing, which also obligated the 
rancher to plant and tend crop fields, implement irrigation, and repair 
or rebuild up to 5 miles of fencing each year. It is my understanding 
that the city's grazing lease offered more favorable terms to the 
rancher than the rates charged to lease similar private lands in the 
Laramie Basin.
    It is clear that the $1.41 per AUM currently charged to public 
lands grazing lessees is far below fair-market value, and indeed is 
insufficient even to pay for the cost of administering the program, 
much less also cover the cost of remediating the damage to public lands 
caused by excessive or inappropriate livestock grazing on Federal 
public lands. Private-lands ranchers, who pay taxes on the private 
lands they graze, are placed at a competitive disadvantage. This is a 
cruel irony given that private-lands ranchers often are raising 
livestock in areas with deeper soils and much more abundant rainfall 
that make them far more ecologically appropriate for cattle. Western 
public lands are among the most arid and least resilient to livestock 
grazing damage. These lands are among the least productive places to 
raise domestic livestock from an economic perspective. Given that 
livestock grazing interferes with and degrades other uses of the land 
(including wildlife habitat, watershed protection, and public 
recreation and enjoyment) that may be substantially more important 
economically and from a public interest standpoint, running a heavily 
subsidized public-lands grazing program for the benefit of private 
ranching interests is a losing proposition for the American people.
permit buyouts offer a very generous option to solve livestock-wildlife 
                               conflicts
    Ranching is becoming an increasingly marginal way to make a living, 
typically requiring one or more unrelated side jobs to maintain a 
viable income. Ranchers are faced with consolidation in the meat-
packing industry, where four corporations control basically all the 
purchasing of cattle and sheep for meat production and sale. At the 
same time, drought, which has always been more the rule than the 
exception west of the 100th longitudinal meridian, brings with it 
cyclical decreases in water and forage, which are only getting longer 
and more pronounced with ongoing changes in global climate. When beef 
prices are low, it is difficult to sustain cattle operations 
economically, and when drought hits, it is also difficult to prevent 
ranching operations from cratering from an economic standpoint. It 
takes a perfect alignment of precipitation and commodity prices to make 
ranching profitable, and so it should surprise no one that the children 
of ranching families are increasingly looking to other occupations when 
they make their career choices.
    As a result, family ranches are increasingly run by an aging 
population, many of whom would like to retire their Federal land 
allotments, receive a cash distribution from a conservation purchaser, 
and either retire for good or else trim back their operations to a more 
manageable private-land operation that they can manage as they age. 
This is a beneficial outcome for the public, because the removal of 
livestock gives rangelands a chance to heal and recover, and increase 
in productivity without the constant grazing pressure of domestic 
livestock. In conservation, success is often measured by reductions in 
the losses of natural areas or a slower decline in wildlife 
populations, so the opportunity to actually increase natural health is 
a significant one. However, without the assurance that livestock 
grazing permits bought out and returned to Federal agencies for the 
benefit of wildlife and habitat restoration won't simply be returned to 
livestock grazing under a different rancher, it is a poor investment 
for conservation buyers give substantial money (typically $250 per AUM) 
to a grazing lessee to retire a grazing lease. Legislation in the 
Boulder-White Clouds and Owyhee River wilderness complexes has worked 
well in stimulating the buy-out of unwanted grazing leases from willing 
sellers, while requiring permanent closure of these leases for the 
benefit of livestock and stream health. The Rural Economic Vitalization 
Act (REVA) would extend this opportunity and option to public lands 
ranchers nationwide, creating a win-win for conservationists and 
ranchers without children who want to carry on the family business and 
who simply would like a golden saddle to ride off into their golden 
years.

                                 ______
                                 

    Mr. McClintock. Great, thank you. Our final witness is Ms. 
Stefanie Smallhouse, President of the Arizona Farm Bureau. She 
comes to us today from Gilbert, Arizona.
    Welcome.

   STATEMENT OF STEFANIE SMALLHOUSE, PRESIDENT, ARIZONA FARM 
              BUREAU FEDERATION, GILBERT, ARIZONA

    Ms. Smallhouse. Chairman McClintock, Ranking Member 
Tsongas, and members of the Committee, my name is Stefanie 
Smallhouse and I am President of the Arizona Farm Bureau 
Federation. I am presenting this testimony on behalf of the 
American Farm Bureau, the Nation's largest general farm 
organization.
    America's ranchers appreciate the chance to share 
information with you about the role we play in strengthening 
our Nation and providing food security for Americans. The 
relationship between private lands and government-owned or 
entrusted lands in western cattle ranching is a very important 
public-private partnership.
    This partnership maintains open space on private, state, 
and Federal lands through the management of watersheds; 
encourages capital investments for the benefit of livestock and 
wildlife on working landscapes; supplies a large workforce to 
manage and care for the public trust without added expense to 
the taxpayer; creates economic activity and sustains a tax base 
for rural communities; and it bolsters our food security 
through the efficient nutrient conversion of a vast natural 
resource otherwise unusable for human consumption.
    In large part, the American West was settled by farmers and 
ranchers engaged in livestock production. A significant number 
of ranching families live in the same place that their 
ancestors settled in the 19th century, much like my own family. 
We ranch in southeastern Arizona and my children are the sixth 
generation to live and work on this ranch. We have been 
recognized locally and nationally for our conservation ethic, 
and the sustainability of our practices is very evident in our 
mere longevity. We also produce a very fine beef product.
    The ranch is a working partnership between private, county, 
state, trust, and Federal lands. The San Pedro River Corridor 
is an area of heightened environmental awareness for the 
habitat it provides in an arid southwest environment. In 134 
years, we have actually decreased the number of houses in our 
footprint, while increasing water sources, forage, and open 
space.
    The ranch provides a causeway for wildlife traveling 
between two mountain ranges. What we refer to as our uplands is 
primary government-owned or entrusted land. Were it not for our 
presence along the river, these two upland ranges would exist 
as solitary and disjunctive areas of habitat.
    Private lands are the anchor for millions of Federal and 
state trust lands, and the assemblage of this relationship 
results in landscape conservation. Ranchers invest in these 
lands. We maintain the improvements for everyone's use, and are 
critical in preventing catastrophic wildfires. Without our 
water improvements, the 20-year drought in Arizona would have 
already decimated our local wildlife populations.
    The partnership is critical in providing our citizens an 
abundant and affordable, well-balanced diet. Only 16.5 percent 
of land in the United States is arable farmland, and the 
government owns nearly half of the western United States. So, 
with little land to farm and such a vast area of the country 
producing cellulose indigestible for humans, cattle ranching is 
essential to make efficient use of our resources to feed 
Americans.
    Rural economies are largely dependent upon production 
industries like agriculture: $1.2 billion in economic income 
came from ranching in Arizona, and 6 of our 15 counties depend 
on ranching as an economic base.
    Ranch ecologist Steve Barker has asked the question 
before--what would it cost the taxpayers of this country to 
provide the same level of management of public lands that 
ranchers provide every day? They deter poaching, resource 
destruction, illegal dumping, and destruction of cultural 
resources, all while helping and assisting members of the 
public.
    To be brief, there are 3,300 ranches in Arizona who employ 
a minimum of two people covering 24/7 shifts. Assuming a 
Federal salary of $60,000 per employee to replace this 
presence, the cost to the taxpayer would be a minimum of $792 
million, and likely closer to $2 billion, considering it would 
take twice as many employees to cover what we do in rancher 
hours. This is assuming you could find 13,000 people to live 
and work in these remote locations, and have the area knowledge 
and experience that these ranchers have.
    The value of this partnership to the American people is at 
risk. The NEPA process to approve necessary conservation 
projects has been slowed to the point of complete paralysis in 
many areas, due to obstruction and threat of litigation from 
radical environmental groups. NEPA is a necessary analysis, but 
it was not intended to end grazing in the West. In just one 
Arizona BLM office, there is currently a backlog of more than 
160 projects. These are simple projects, and they are taking 5 
to 7 years to gain approval. That is a loss for the American 
public.
    In closing, the existence of cattle ranching in the West is 
built upon the relationship between the American cattle 
rancher, like myself, and the public trust, like all of you. 
Early in the 20th century, it was the rancher who promoted the 
idea of managed grazing and a permit system to control 
overgrazing on public lands. In our daily work to produce food 
for others, we rely on the public to trust our attentions and 
our stewardship. We do not take this for granted. And in 
return, we produce safe, nutritious, and affordable food, while 
conserving landscapes where we work.
    A great amount of science, technology, sweat, and heart 
goes into every acre of land, drop of water, and serving of 
beef. We trust that our government and the citizenry will 
support us through these genuine efforts to keep the 
partnership working for all of us.
    Thank you.

    [The prepared statement of Ms. Smallhouse follows:]
  Prepared Statement of Stefanie Smallhouse, President, Arizona Farm 
                           Bureau Federation
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Committee, my name is Stefanie Smallhouse. I am President of the 
Arizona Farm Bureau Federation and am presenting this testimony on 
behalf of the American Farm Bureau Federation, the Nation's largest 
general farm organization. I am honored to be here today to offer 
testimony to the Committee regarding the Essential Role of Livestock 
Grazing on Federal Lands and its Importance to Rural America.
    Those of us who work in the small percentage of the population 
producing food and fiber, and the even smaller percentage who produce 
beef, appreciate the chance to share with you information about the 
role we play in strengthening our Nation and providing food security 
for Americans. I am going to describe the relationship between private 
lands and government-owned or -entrusted lands within the world of 
cattle ranching in the West and how this relationship is an important 
public/private partnership. This partnership maintains open space on 
private, state and Federal lands through management of watersheds; 
encourages capital investments for the benefit of livestock and 
wildlife on working landscapes; supplies a large workforce to manage 
and care for the public trust without added expense to the taxpayer; 
creates economic activity and sustains a tax base for rural 
communities; and bolsters our food security through the efficient 
nutrient conversion of a vast natural resource otherwise unusable for 
human consumption.
    In large part, the American West was settled by farmers and 
ranchers engaged in livestock production. When Congress began to 
regulate livestock grazing on Federal lands, a key component of that 
regulatory scheme as expressed in the Taylor Grazing Act was the 
maintenance of the economic stability of the ranching community. Many 
rural communities throughout the West depend on Federal lands grazing 
for their economic stability. Ranchers are good stewards of the lands 
they use. Some of the best wildlife habitat is found on these lands. 
Federal lands ranchers preserve open space and provide valuable 
environmental contributions across the West. A significant number of 
ranching families live in the same places that their ancestors settled 
in the 19th century.
    Drought, wildfire, fluctuating prices and lawsuits have made 
livestock ranching a much more challenging endeavor in recent years. 
Fourth and fifth generation ranchers face the loss of their lands. The 
stability of the ranching community that the Taylor Grazing Act sought 
to preserve is severely challenged.
    My own family ranches in southeastern Arizona. The Carlink Ranch 
straddles the Lower San Pedro River and operates in the same location 
it did over 130 years ago. My husband and I are raising the sixth 
generation to live and work on this cow calf operation. We have been 
recognized locally and nationally for our conservation ethic and the 
sustainability of our practices is evident in our longevity. We also 
produce a very fine beef product!
    The ranch itself is a working partnership between private, county, 
state trust and Federal lands. Our private lands are farmed for 
irrigated hay and forage crops, which allows us to properly rotate and 
manage our cattle herd for year-round grazing. The Lower San Pedro 
River corridor is primarily private and an area of heightened 
environmental awareness for the habitat it provides in an arid 
southwest environment. In 134 years, we have actually decreased the 
number of houses in our footprint, while increasing water sources, 
forage and open space. Like many other western cattle ranches, the 
Carlink Ranch provides an open space causeway for wildlife traveling 
between two mountain ranges. What we refer to as our uplands, is 
primarily government-owned or -entrusted land. Were it not for our 
presence along the river these two upland ranges would exist as 
solitary and disjunctive areas of habitat.
    The public-private partnership which exists between ranchers and 
publicly held grazing lands in the western United States allows us to 
conserve and efficiently manage the vast natural resources with which 
we are blessed. Some of the most pristine environments and riparian 
areas in the West exist on private ranch lands. These lands are the 
anchor for millions of grazing land acres on Federal and state trust 
lands. Western ranches tend to be vast in acreage to survive periods of 
drought, combat creeping development and mitigate for restrictive 
environmental actions. This requires an assembly of various ownership 
within one ranch operation; however, the assemblage is managed as one 
unit regardless of ownership and this is more in line with landscape 
scale conservation efforts which don't start and stop dependent upon 
political boundaries. Ranchers invest in working lands infrastructure 
and maintain that infrastructure for livestock, wildlife, and the 
public in general. Cattle are an integral part of managing our forests 
to prevent catastrophic fire and ranchers play an important role in 
planning for prescribed burning and fire recovery. Grazing management 
on Federal lands improves watersheds and water infiltration. In 
Arizona, we are well into a 20-year drought. Without the development 
and maintenance of the water sources we have for our livestock, 
wildlife would be without water for most of the year. We have invested 
a great deal of money in controlling the invasive mesquite tree, which 
consumes water at an alarming rate and creates a monoculture with 
little understory vegetation to slow water infiltration.
    This partnership benefits the well-being of our citizens and their 
access to an abundant, affordable and safe source of animal protein for 
a well-balanced diet. In order to keep that supply abundant and 
affordable, the production of beef must be efficient. Only about 16.5 
percent of land in the United States is arable farmland and used in the 
production of food, feed and fiber crops; from the remaining 
undeveloped land we must garner other food sources. Nearly half (47 
percent) of the western United States is owned by the Federal 
Government and produces cellulose indigestible for humans. The 
association between cattle ranching and government-owned lands in the 
western United States is the highest and best use of those lands in 
assuring a complete and balanced food supply in the United States.
    Economic development in many rural communities throughout the West 
is limited to production industries such as mining, logging and 
agriculture. In Arizona, the beef industry contributed $1.2 billion in 
economic output in 2012 and was considered the economic base in 6 of 
the 15 counties. Nearly three-quarters of Arizona's total land is 
managed by grazing (Kerna et al., 2014). Over one-third of all ranches 
in Arizona include a mixture of two or more government owned lands 
within the ranch unit and another third consist solely of Federal 
grazing lands (Ruyle et al., 2000). Generally, ranch lands provide more 
in tax revenue than they require in services.
    Mr. Steve Barker, a range ecologist with a long and respected 
career in both the public and private sectors, recognized the 
importance of this relationship several years ago. He asked the 
question, ``What would it cost the taxpayers of this country to provide 
that same level of management of public lands that ranchers provide 
every day?'' At a minimum, each ranch employs at least two people who 
are on call for work duty throughout western rangelands 24 hours a day, 
7 days a week. These resource managers are a presence in both the 
widely used recreational areas and the vast remote areas of the western 
United States. They deter poaching, resource destruction, illegal 
dumping and destruction of cultural resources, while assisting members 
of the public in areas where help is hard to find. They generate direct 
revenue to Federal and state governments through permits and leases for 
cattle grazing. These land managers provide their own operational 
equipment, buildings, benefits and administrative necessities. They 
invest in and maintain range improvements, benefiting livestock, 
wildlife and the public. Many of these ranchers and their employees 
have been caretakers of the same resources for their entire lives and 
often for many generations. They have years of experience and a wealth 
of knowledge of these environments.
    Using Arizona as an example, 85 percent of the state's grazing 
land, not including tribal lands, is administered by either a Federal 
agency or state trust land (Ruyle et al., 2000). According to the USDA, 
in 2012 there were over 3,300 beef cattle ranches in production in 
Arizona. Given the important relationship between private, Federal and 
state grazing lands, it's logical to assume most if not all of these 
ranches are managing Federal and/or state natural resources. State 
trust land management varies considerably from state to state, but if 
you were to assume the average salary of a Federal employee to be 
$60,000 annually, to replace the ranch workforce would be a minimum 
increase in Federal spending of $792 million. This spending would 
double because the Federal Government would need twice as many 
employees to cover the 24/7 presence of the rancher. A conservative 
estimate of the increased taxpayer funding necessary to manage public 
lands just in Arizona, if ranching were not a permitted use of such 
lands, would be over $2 billion and this does not include the 
additional staff to administer and manage the increased field personnel 
or the capital investment of the rancher. This is assuming you could 
find 13,000 people to live and work in remote locations under strained 
working conditions. The local area knowledge and resource experience 
would be nearly impossible to replicate.
    The value of this partnership to the American people is at risk of 
being lost to a dysfunctional regulatory system which slows 
productivity to the point of complete paralysis when confronted by the 
threat of litigation. The National Environmental Policy Act (NEPA) was 
a mandate to the Federal Government to consider the effects of their 
actions, encourage mitigation to reduce negative impacts, and disclose 
what impacts might result from the action. It was not intended to 
provide a spring board for special interest groups to file frivolous 
lawsuits against government agencies for no other reason than to be 
obstructive, endanger the sustainability of family ranches and earn 
revenue. This process has veered away from the framework of logical 
thinking, scientific evidence and partnership planning.
    NEPA requires the consideration of the environmental impacts of any 
major Federal action significantly affecting the quality of the human 
environment. Compliance with traditional NEPA requirements has placed a 
tremendous burden on the agencies.
    In just one of Arizona's Bureau of Land Management (BLM) Field 
Offices there is currently a backlog of more than 160 improvement 
projects. Projects which could be a positive benefit for the land, 
livestock, wildlife and the public as a whole are sitting inactive in 
the NEPA process due to the tactics of environmental organizations. 
Simple fence line and pipeline projects requiring very little NEPA 
analysis are taking upwards of 5-7 years to gain approval. During this 
time, funding assistance for the projects is lost and the greatest 
losers are the American public.
    Responsible grazing is consistent with environmental and 
conservation goals on the rangeland. While we recognize that NEPA is a 
Federal requirement, we support modifications to NEPA to expedite the 
process, make compliance cost effective, recognizing the appropriate 
role of the permittee in the public involvement process and creating 
standards that are attainable. It is clear that the current 
requirements are too much for the agencies to comply with. The large 
number of allotments and permits, coupled with the dwindling manpower 
and resources of the agencies, will again inhibit Federal land 
management agencies from keeping up with their schedule. Congressional 
oversight of Federal land management grazing programs is required to 
ensure Federal implementation is effective and efficient. Agencies 
should focus on cutting red tape so that more time and effort is 
devoted to on-ground improvements. In addition, greater flexibility 
should be provided to land managers and permittees, while at the same 
time improving the conservation of the land. Both Congress and the 
agencies need to start thinking of how to resolve this problem now. 
Unless solutions are found, western rangelands and the rural economy 
will continue to decline.
    In closing, the existence of cattle ranching in the West is built 
upon the important and sometimes strained relationship between the 
American cattle rancher and the public trust. Early in the 20th 
century, it was the rancher who promoted the idea of managed grazing 
and a permit system to control overgrazing on public lands. In our 
daily work to produce food for others we are dependent upon the public 
to trust our intentions, our operations and our stewardship. We do not 
take this trust for granted and strive to better our operations daily. 
In return we produce safe, nutritious and affordable food while 
conserving the landscapes where we work and live. A great amount of 
science, technology, sweat and heart goes into every acre of land, drop 
of water and serving of beef. We trust that our government and the 
citizenry will support us through genuine efforts to keep the 
partnership working for all of us.

                               references

Kerna, Ashley, George Frisvold, Russell Tronstad, and Trent 
Teegerstrom. 2014. ``The Contribution of the Beef Industry to the 
Arizona Economy.'' Cooperative Extension. Department of Agriculture and 
Resource Economics. The University of Arizona.

Ruyle, George B., Russell Tronstad, Diane W. Hadley, Philip Heilman, 
and David A. King. 2000. ``Commercial Livestock Operation in Arizona.'' 
Livestock Management in the American Southwest: Ecology, Society, and 
Economics. Ed. R. Jemison and C. Raish. Elsevier Science.

                                 ______
                                 

 Questions Submitted for the Record by Rep. McClintock to Ms. Stefanie 
         Smallhouse, President, Arizona Farm Bureau Federation

    Question 1. H.R. 2936, the Resilient Federal Forests Act, which was 
passed by the Committee included a categorical exclusion to expedite 
bureaucratic environmental reviews for many activities, such as 
maintenance of water infrastructure to benefit wildlife and livestock 
and fence modifications to better distribute livestock and improve 
wildlife habitat. Time and again, we heard how important this CE would 
be to grazers and land managers alike. However, this common-sense 
streamlining continued to face opposition from the environmental left.

    1A. How does red-tape created by Federal laws like NEPA and the ESA 
impact your family's ability to continue its heritage of responsible 
grazing on Federal lands?

    Answer. I believe both laws you reference in your question were 
passed with the good intentions of implementing practical natural 
resource management and species protection in tandem with production 
activities. However, much has changed since the 1970s, including 
monitoring techniques, range management prescriptions, water delivery 
systems, and the role that radical environmental organizations play in 
disrupting science based Federal land management decisions. 
Availability of news tools such as Categorical Exclusions can increase 
the efficiency in the Federal decision-making process as well as 
accomplish the goals underlying goals of the environmental law while 
allowing sustainable livestock production on public lands.
    It is necessary in ranching to adjust and improve current 
production practices and infrastructure to remain efficient, 
sustainable and competitive. The ranching of today is very different 
from that of a century ago. In consideration of riparian areas, 
unpredictable weather, proactive management of resources, 
administrative changes in agency offices and labor shortages, land 
managers must be able to build and maintain fencing and water 
infrastructure to move and manage cattle efficiently. These practices 
are done with the intent of conserving the land and water while 
producing quality beef. As the NEPA process becomes more cumbersome and 
slow-moving due to litigation, and as the ESA restricts many activities 
on public lands encumbered with critical habitat areas, it becomes more 
difficult to move forward with routine ranching activities. Because of 
the bureaucratic red tape involved with these laws, routine activities 
can often take 2 or more years for permitting. Under those conditions, 
staying in business becomes increasingly difficult. Moreover, 
installation and maintenance of rangeland improvements and new 
conservation practices can be very expensive and do not pay for 
themselves. In these cases, ranchers often apply for private, state and 
Federal funding in the way of cost share and grants to offset the 
initial investment strain for the rancher. When red tape slows this 
process down, the funding can be lost which effectively kills the 
project. When projects don't get built or even maintained, the natural 
resources suffer, the rancher suffers, and the local economy suffers in 
the long term.
    As a trained wildlife biologist who worked for the Bureau of Land 
Management in my previous career, I believe wildlife in most instances 
are perfectly adapted not only to co-exist with grazing and rangeland 
infrastructure, but absolutely benefit from many rangeland 
developments. Today, most practices are planned with wildlife use and/
or mitigation in mind through required specifications.

    1B. Would streamlining provisions like the one I described that was 
included in H.R. 2936 be helpful to reducing the red tape faced by 
grazers and Federal land managers? Would it make it easier and faster 
to implement smart grazing practices on Federal lands that adapt to the 
needs of the landscape.

    Answer. Yes, and ranchers are a valuable partner in resource 
management and rehabilitation following a catastrophic event such as 
wildfire. In addition to the changes suggested in my previous comments, 
which also apply to this question, H.R. 2936 would simplify 
environmental process requirements, reduces project planning times and 
reduces the cost of implementing forest management projects while still 
ensuring robust protection of the environment. Farm Bureau policy 
supports amending current law to provide common-sense relief to the 
bureaucratic gridlock that has plagued implementation of management 
decisions on our Nation's forests and rangelands.
    The poor health of Federal forests and grasslands threatens 
wildlife habitat, watersheds, and neighboring non-Federal lands, as 
well as the vitality of rural communities across the country.
    The Resilient Federal Forests Act provides Categorical Exclusions 
(CEs) under NEPA that will allow needed land management projects to be 
more quickly prepared, analyzed, and implemented. It will also allow 
forest recovery projects to proceed more quickly, addressing a dire 
need created by recent wildfire seasons. Federal land management 
agencies are experienced with developing management techniques to 
reduce invasive pests, thin hazardous fuels, create and maintain 
habitat for species, recover damaged timber and protect water quality. 
Expediting these projects will efficiently mitigate risk and help 
maintain critical partnerships with permittees and rural communities.

    1C. How else can Federal laws and regulations be streamlined to 
better support smart grazing on our public lands?

    Answer. The greatest threat to grazing on public lands is not so 
much the laws which were enacted with good intent, but how those laws 
have been hijacked through the use of litigation against the Federal 
Government by environmental groups. This has paralyzed routine actions 
involving Federal lands grazing and rangeland management.
    The Equal Access to Justice Act: Farmers and ranchers are often 
targets of activists who seek to drive policy making through 
litigation. As such, we are very sensitive to how the EAJA functions, 
and we support reforms to the law to assure that it is not manipulated 
by legal activists. Farm Bureau policy supports legislation to reform 
the Equal Access to Justice Act.
    Endangered Species Act: For the last 30 years, Congress has been 
unable to successfully provide meaningful changes to the ESA. In the 
meantime, the U.S. Fish and Wildlife Service, the National Marine 
Fisheries Service, and activist judges have broadened and strengthened 
the regulatory power of the ESA through rulemaking after rulemaking.
    It has been nearly 30 years since the last significant amendment to 
the ESA was signed into law.
    Today, the ESA provides ``protections'' for 1,661 domestic species 
at a cost to the American taxpayer of roughly $1.4 billion a year. (FY 
2016). However, only 3 percent of species have been successfully 
recovered and removed from the list since the law was enacted 45 years 
ago.
    ESA modernization is necessary because there are clear shortcomings 
associated with the upkeep and recovery rate of listed species. 
Congress intended for the ESA to recover species from the brink of 
extinction, but the law fails to accomplish its intended purpose by 
prioritizing species listings over actual recovery and habitat 
conservation. Unfortunately, the law fails to provide adequate 
incentives for working lands species conservation and imposes far-
reaching regulatory burdens, which restrict agriculture's ability to 
produce food, fuel and fiber for consumers here at home and around the 
world.
    For agricultural producers, farm and ranch land is the principal 
asset used in their business. ESA restrictions are especially harsh for 
farmers and ranchers because the law can prevent them from making 
productive use of their primary business asset. Unlike other 
industries, farmers and ranchers typically live on the land in which 
they work and operate with a strong focus on both economic and 
environmental stewardship.
    Despite the fact that the ESA was enacted to promote the public 
good, farmers and ranchers bear the financial brunt of providing food 
and habitat for listed species through restrictions imposed by the ESA. 
Society expects that listed species be saved and their habitats 
protected, but this cost falls on the landowner upon whose property a 
species is found.
    Of course, no one wants to see American wildlife disappear from our 
landscape, but it is time for common-sense reform that brings farmers 
and ranchers to the table. I am encouraged by efforts such as those by 
the Western Governor's Association to propose meaningful reform to this 
burdensome regulatory scheme. The legislative package introduced this 
month by members of the Congressional Western Caucus is similarly a 
breath of fresh air to American farmers, ranchers, and landowners. By 
enacting these bills and recommendations into law, the ESA will be 
modernized to provide clarity and certainty, encourage voluntary 
conservation, increase local government and stakeholder involvement, 
and chart a path for real recovery of threatened and endangered 
species.

                                 ______
                                 

    Mr. McClintock. Great, thank you very much for your 
testimony. We will now move to questions by the Committee 
members, and I will begin.
    Mr. Molvar, in your prepared statement you say that 
livestock grazing is like a slow and invisible cancer that is 
insidiously and inexorably killing native ecosystems across 
vast areas. Is your counsel to this Subcommittee to ban cattle 
grazing outright on the public lands?
    Mr. Molvar. Chairman, Western Watersheds' position is that 
if there is going to be public lands livestock grazing on 
western public lands, it needs to become compatible with the 
native ecosystems that are out there.
    Mr. McClintock. Well, you have basically testified that it 
is completely incompatible.
    Mr. Molvar. I am sorry, sir?
    Mr. McClintock. You have testified it is completely 
incompatible. Are you advocating banning grazing on public 
lands in its current form?
    Mr. Molvar. I have testified that it is causing major 
ecological problems, and that those ecological problems need to 
be solved. And if the livestock industry is incapable of 
solving these problems, then there is a real question of 
whether the public has an interest of having livestock on those 
particular public lands where those problems----
    Mr. McClintock. So, you are not going to tell me whether 
you are going to counsel us to ban it or not.
    Mr. Molvar. It is not our official position to ban 
livestock grazing throughout western public lands.
    Mr. McClintock. OK. And in your statement you say that you 
are the author or editor in chief of 17 books that focus on 
western public lands. How many of these are peer-reviewed books 
on wildlife and land management?
    Mr. Molvar. They are all popular books.
    Mr. McClintock. On hiking, as I understand it.
    Mr. Molvar. Most of them.
    Mr. McClintock. Dr. Naugle, in your statement you say you 
are the author of more than 90 papers and 2 books. How many of 
these are peer-reviewed papers and books on wildlife and land 
management?
    Dr. Naugle. All of them. It is the gold standard for 
science.
    Mr. McClintock. OK. In your view, then, is targeted grazing 
compatible with wildlife and land conservation?
    Dr. Naugle. Yes.
    Mr. McClintock. Mr. Molvar tells us that, from his 
perspective, cattle grazing promotes cheatgrass overpopulation. 
You have testified exactly the opposite. Would you care to 
comment on the discrepancies in your two conclusions?
    Dr. Naugle. I think we are wrapped around the axle on some 
of the local grazing issues, and I just don't want us to take 
our eye off the prize of the big threats that are facing us in 
the West, in terms of wildfire and cheatgrass. We need ranching 
to help us tackle those.
    Mr. McClintock. So, in your view, targeted grazing is 
compatible with wildlife and land conservation?
    Dr. Naugle. Yes, it is an option we are going to need even 
more as catastrophic wildfire continues to eat up the open 
space that is available to wildlife and ranching.
    Mr. McClintock. And what environmental benefits have you 
noted through such practices? Obviously, fire suppression.
    Dr. Naugle. Fire suppression is one. I will stay in my lane 
on sage-grouse, since I spent my career on that. And our new 
science is showing that in grazed pastures compared to idled 
pastures that haven't been grazed for up to 10 years, Montana 
State University work is showing that there is actually more 
food in the form of insects for growing sage-grouse young.
    Mr. McClintock. Would you care to critique Mr. Molvar's 
analysis of the subject?
    Dr. Naugle. I wouldn't.
    [Laughter.]
    Mr. McClintock. OK. In your testimony, you described the 
Working Lands for Wildlife program is creating win-win 
solutions all across the country. You attribute this success to 
the collaborative approach that pairs ranchers and Federal land 
management agencies to achieve effective conservation goals.
    What is it about this private-public approach that works so 
well?
    Dr. Naugle. Working Lands for Wildlife, part of NRCS, works 
primarily on private lands. But we understand, in our approach, 
that to keep a rancher ranching, that they also require 
allotment renewals on public land. So, we use the strength of 
the farm bill on private lands, and we also always seek to find 
compatibility on public land to keep them sustainable and 
productive.
    Mr. McClintock. Lieutenant Governor Little, I appreciate 
your remarks about well-intended laws like NEPA and ESA being 
weaponized by radical groups, groups whose business model 
basically is, as I said in my opening, sue, settle, and award.
    One such group, Advocates of the West, which has 
represented western watersheds on several frivolous lawsuits, 
boasts in its annual review that a sizable 31 percent of their 
entire budget comes from attorney fee awards, a majority of 
those from judgment funded under the EAGA.
    Could you expand on how the actions of these litigious 
groups are undermining livestock grazing on public lands in 
your home state?
    Mr. Little. Mr. Chairman, they are devastating, 
particularly when commodity prices are down, cattle and sheep 
prices are down. They are very disruptive. People's bankers are 
not very understanding when the security of a year-round 
operation is jeopardized by a permit renewal or some kind of 
litigation that means a rancher can not have that year-round 
operation that they put together for sometimes over 100 years.
    So, it is the instability that really creates a problem, 
not only for the rancher, but the community that is dependent 
upon that year-round operation.
    Mr. McClintock. Thank you. My time has expired.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. I, for one, 
appreciate that ranching has long supported many western 
families and lent a unique character to that part of our great 
country.
    And I have respect for it, but at the same time I think we 
have to balance those economic interests with the multiple use 
mandate and sustainability of our Federal lands. That is the 
challenge we face over and over again on this Committee.
    Mr. Molvar, the Rural Economic Vitalization Act would 
authorize voluntary grazing permit retirement and buy-out 
financed by private parties. This is one possible policy 
solution that creates an economic incentive to decrease the 
ecological impact of grazing on Federal lands. In your opinion, 
how would the buy-out of unwanted grazing leases from willing 
sellers benefit public lands ranchers nationwide?
    Mr. Molvar. Mr. Chairman and Representative Tsongas, the 
Rural Economic Vitalization Act would authorize permits that 
are bought out for conservation purposes to be permanently 
closed, thereby giving conservation purchasers the assurance 
that their purchases will be a good investment in the future of 
the lands in question, and will actually remove the cattle for 
the long term.
    In environmental conservation, for the most part, we are 
now fighting a fighting retreat as human footprints expand and 
wild places and native ecosystems shrink and species head 
toward extinction. When you actually retire a grazing permit, 
and the livestock are removed, that means the grasses get to 
recover, the wildlife get to have their full measure of forage, 
the habitats go back toward a native state, and you lose the 
invasive species like cheatgrass over time.
    So, nature actually has a chance to heal, and you can move 
the environment in a positive direction. It is rare in 
conservation to be able to move the environment in a positive 
direction. For the most part, we are basically trying to fight 
as hard as we can to hold on to what few wild areas we have 
left.
    Ms. Tsongas. And we have to remember this Act does talk 
about willing sellers.
    Lieutenant Governor Little, as a rancher whose family has 
been long in that field, do you see a program like this 
offering an option to those families who have been invested in 
ranching for decades, if not longer, but who want to retire 
from that field? Do you see this as a way forward for some 
family ranchers?
    Mr. Little. We would never advocate for the wholesale buy-
out. There might be instances where, in small areas, it can be 
used. But for the most part, if you permanently retire 
livestock, you have lost that tool. And more importantly, if 
you close off an allotment, the rancher retires, moves away, 
everybody that supports the rancher moves away. We have lost 
that initial attack that we have for fires, for noxious weeds, 
for other rapscallions that may be out there on the public land 
doing whatever it might be. So, the loss of that tool, the 
downside versus the upside, should be measured very, very 
carefully wherever it is looked at.
    There are instances where some small changes to allotment 
will make a great difference in whatever prescribed landscape 
the public decides they want to have there. But the loss of 
livestock as a tool is a catastrophic move that the public 
needs to be very careful about implementing.
    Ms. Tsongas. But do you see any benefit to the family 
ranchers themselves, who are just trying to find a way out 
which provides them with some financial security?
    Mr. Little. Well, if the alternative is a closure of their 
allotment, there are some instances where it might be. But for 
the most part, it should never, ever be the first choice. It 
should be the last choice because there are some resources so 
critical, it happens all the time in the development field.
    But remember, the unintended consequence of that permit 
being retired. What happens to that private ground that is 
adjacent to it? And what happens to the total public good of 
having that intact ranching community that Dr. Naugle talked 
about as far as sage-grouse habitat, wildlife habitat, being 
able to manage these ecosystems to where you are generating the 
right kind of winter feed for the ungulates?
    The total consequences of it are more often negative than 
they are positive.
    Ms. Tsongas. Thank you. I would love to have this bill come 
forward from our robust discussion. But, I have lost my time.
    Mr. McClintock. Thank you.
    Ms. Tsongas. Thank you.
    Mr. McClintock. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses today.
    Ms. Smallhouse, in your testimony, you have talked about 
how important grazing and ranching are for rural Arizonians. I 
am from Arkansas. We have about 5.6 million acres of private 
and public lands that are set aside for grazing. I know that is 
a small number compared to out West. We measure our cattle 
farms in acres, and you measure your ranches in sections.
    Nevertheless, it is very important to our state's economy. 
Beef cattle actually make up half of all the farms in Arkansas, 
and that economic value is not only felt across the 4th 
District that I represent, but all across the state.
    As a young man, I was in the Future Farmers of America. I 
remember learning the creed, and the line in it sticks in my 
mind that says, ``I know the joys and discomforts of 
agricultural life.'' I actually had one of these small cattle 
farms at one time and it made me joyful and brought me some 
discomfort. I was happy when I got those cows, had a lot of 
discomfort when we had drought and there was no grass for them 
to graze, when predators killed my calves. And then I was very 
happy when I sold my herd to my friend. But I understand the 
challenges that ranchers and cattle farmers face.
    Ninety-seven percent of our farms in Arkansas are small 
family farms. When the Federal Government makes it harder to 
ranch, they are typically the ones that lose out. What impact 
do Federal regulations have on our rural families all across 
the country?
    Ms. Smallhouse. Well, any time you make someone's job more 
difficult it has a negative impact and costs you money out of 
not only your pocket, but your ability to produce for the 
country.
    We have the Endangered Species Act, as to what was referred 
to before. This is something that is a very serious issue for 
folks ranching in the western United States. Sixty percent of 
habitat is on private lands, and those Federal lands tie those 
private lands and keep them into open space. So, any time you 
have an endangered species designation on your property, it 
restricts what you can do. The Federal Government manages 
species that are even candidate species for endangerment, and 
also continues to manage in the same way once they have been 
de-listed for about 5 to 7 years. So, it could be a pretty 
binding regulation if you find yourself in that situation.
    That is sort of what leads to our NEPA delays, and how long 
it is taking for very simple projects that have no impact upon 
endangered species or the health of the environment. It is 
taking them so long to get through.
    When it takes you 5 to 7 years to get a conservation 
practice on the ground, and you have funding available to you 
through the NRCS programs--we have ranchers who have lost 
$150,000 in cost share, so they were willing to invest another 
half of that of their own money. That is a loss to the American 
public and management of the public lands, but it is also an 
income loss to that rancher, and makes it more difficult for 
them to stay on the land.
    Mr. Westerman. And even though we have seen farm incomes 
shrinking significantly over the past decade, grazing still 
provides steady family wages in many places across the Nation. 
Some of our anti-grazing opponents argue that seasonal 
recreation jobs like guiding and working in an outfitter can 
serve as a replacement for grazing.
    Given not only your background as a rancher, but your 
experience living and working in the West, do you believe this 
to be true? And can these seasonal jobs really replace 
ranching?
    Ms. Smallhouse. Representative Westerman, can you repeat 
the question?
    Mr. Westerman. Do you think that seasonal and recreational 
jobs could replace ranching in the West? Could they provide 
those steady family incomes, like ranching does?
    Ms. Smallhouse. For the rancher?
    Mr. Westerman. Right.
    Ms. Smallhouse. Absolutely not. I think that you are 
looking at seasonal jobs. That is a seasonal job. I have to eat 
every day. I don't know, some people may be able to eat 
seasonally, but my family needs to eat every day.
    Mr. Westerman. Thank you and, Mr. Chairman, I yield back.
    Mr. McClintock. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. Thank you all for being 
here.
    Mr. Molvar, grazing on Federal land is highly subsidized, 
and costs American taxpayers millions of dollars every year. 
Both the Forest Service and BLM spend much more on 
administering the grazing program than they receive in the 
actual grazing fees.
    In your opinion, would there be significant economic impact 
to rural western economies if Federal grazing fees were 
adjusted to a level that would at least allow the Forest 
Service and BLM to break even, in terms of the administration 
of the program?
    Mr. Molvar. Representative Gallego, certainly the current 
grazing rate of $1.41 per animal unit month is far less than 
the $22.60 in those same western states that private grazers 
pay to lease private grazing lands.
    And I would like to point out, when I was on the City 
Council of Laramie, Wyoming, I was on the Ranch Advisory 
Committee, and I negotiated a private grazing lease with our 
lessee. That grazing rate that we negotiated was $14.44 an 
animal unit month for summer grazing, and that included that 
the permittee had to pay out of his pocket to fix or replace 5 
miles of barbed wire fence every year and plant and tend the 
city's crops that were irrigated on the Monolith Ranch.
    So, the idea that the Federal Government is allowing 
private livestock to graze on public land for this pittance of 
$1.41 an animal unit month, instead of charging fair market 
value, even as it runs these giant deficits at taxpayer 
expense, means that the U.S. taxpayers are funding huge 
subsidies to the livestock industries for the privilege of 
having cattle to graze on their public lands, to reduce the 
fish populations that they want to fish for, to reduce the elk 
and deer populations that they want to hunt for, and to degrade 
the health of the land, overall, where they want to camp and 
recreate.
    And when you get right down to it, when you look at the 
pluses and minuses in the economics, what you find is that the 
vast majority of the American public cannot see the benefit of 
paying to have this private use on public land with these kinds 
of impacts.
    Mr. Gallego. When was the last time the fee did increase?
    Mr. Molvar. Well, most recently the fee decreased. I 
believe it was $2.11, and then it went down to about $1.83, and 
then it went down to $1.41. We are talking about $1.41 compared 
to 1978, when they started the program, it was $1.35. So, it is 
$.06 more than it was in 1978. If you do the inflation 
calculator, you find that the grazing fee, just by pure 
inflation, ought to be at least $9.00 an animal unit month.
    And importantly, Representative Westerman talked about his 
private land's livestock grazers. They are paying the full 
market value. They are paying the taxes on the lands where they 
graze. They are competing, in some measure, with these public 
lands grazers that, in fact, make up only 1.9 percent of the 
beef produced in the United States.
    So, why are we so vastly subsidizing these 22,000 ranching 
families in the West to produce a product that makes up 1.9 
percent of America's beef at the cost of all of these land 
health problems and all of this public recreation benefit? It 
just does not make a great deal of sense.
    Mr. Gallego. Kind of sticking on this subject matter, in 
2016 there was a report by the GAO on authorized grazing, and 
they found that the Forest Service and BLM could not accurately 
report unauthorized grazing figures because, according to 
agency officials, the agencies prefer to handle most incidents 
informally with a telephone call and not to actually record 
anything. And further, the penalties assessed by the Forest 
Service when unauthorized grazing occurs are so low that it 
doesn't act as a deterrent.
    Knowing the Federal program is already operating on a 
deficit and the charge rates are far below market value, would 
you agree that it is time for the agencies to strengthen their 
internal controls relating to tracking and mitigating 
unauthorized grazing, as well as raising the penalties and 
actually enforcing the penalties to a level that provides an 
actual meaningful deterrent to those illegal grazers?
    Mr. Molvar. It is absolutely true that illegal grazing on 
Federal public lands is far more widespread than is reported. 
The BLM range management officials are thinly stretched, 
understaffed, and they are stuck in their offices, so they are 
not out on the land to see these grazing trespasses that are 
chronic.
    Cliven Bundy is the most famous grazing trespasser, but he 
is certainly far from the only one. Western Watersheds Project, 
in our field work, sees this all the time. And it is far past 
time for the United States to start operating its public lands 
grazing program with some kind of accountability, so that 
grazing permittees that are actually grazing more cattle than 
they are allowed, or grazing in places where the cattle are not 
permitted to be, are held to account. And ultimately, if they 
have several violations, they ought to lose their permit.
    Mr. Gallego. I yield back.
    Mr. McClintock. Chairman Bishop.
    Mr. Bishop. Thank you. I appreciate the opportunity of 
being here and listening to the testimony. I would also like to 
tell Mr. Westerman when you sold your cattle, that is not 
isolated. It is the same thing as the two greatest days in the 
life of anyone who owns a boat--when he bought it and when he 
sold it. So, it is the same thing.
    [Laughter.]
    Mr. Westerman. Been there, too.
    Mr. Bishop. Yes. Doctor, can I ask you a simple question? 
Because you mentioned sage-grouse, and I have a passing 
interest in that issue.
    [Laughter.]
    Mr. Bishop. But I appreciate the data that you are giving 
us, because the conventional wisdom, especially the old Fish 
and Wildlife management's conventional wisdom, was that grass 
height and elevation of the land were the two key factors. You 
are saying that there are other factors that could be 
successful in making sure that habitat takes place?
    Dr. Naugle. Yes. A centerpiece of science is to continually 
test assumptions. And with our new grass height evaluation, we 
found that a generation of scientists, myself included, have 
been measuring this the wrong way.
    I will go biological on you for a minute. We have always 
feared, as scientists, of approaching a nest from an incubating 
female, for fear that she would abandon the nest. So, if you 
have a nest that fails early, perhaps it is predated, it takes 
a couple more weeks for the other nest that is successful to 
hatch young. So, that gives those spring grasses a lot longer 
to grow.
    Well, we go to those nests that fail, and we wait until 
they hatch, so that the incubating female doesn't leave, and we 
have artificially created this relationship of grass height to 
nest success. When we go and remove that bias by establishing a 
common time frame for all the nests, there is no difference in 
grass height. That is that thickness of a penny. So, we are 
kind of wrapped around the axle of this precisionism concept, 
where kind of a one-size-fits-all right now on that land 
policy----
    Mr. Bishop. So, what you are telling me is there is an old 
science that has been assumptions and there is some new science 
that is challenging those assumptions all the time.
    Dr. Naugle. Yes, sir.
    Mr. Bishop. Governor Little, or Lieutenant--well, Governor 
Little.
    [Laughter.]
    Mr. Little. I answer to both.
    Mr. Bishop. OK. The state of Idaho has a habitat plan. They 
have been required to do it. Does your habitat plan take into 
account these changes in scientific basis? Does it do it far 
sooner than the Fish and Wildlife Service back here in 
Washington does?
    Mr. Little. Any good resource plan is adaptive. And there 
isn't hardly any piece of real estate that doesn't have 
different nuances. And that is the beauty of having these big 
issues addressed at the state and local level, where the 
scientists and the resource managers on the ground go out and 
look in each and every one.
    But time and time again, what we have discovered in Idaho 
is the two biggest threats to sage-grouse are invasive species 
and fire. And if you don't address those two big challenges, 
the nuances----
    Mr. Bishop. And you are saying grazing can help on the fire 
suppression at the same time?
    Mr. Little. Absolutely. For fuel management, most important 
is initial attack. The fact that the agencies continue to 
consolidate their firefighters and the ranchers are dispersed, 
and it is that initial attack where it saves you, the people 
that have to write the checks for these fires, saves you an 
enormous amount of money by having that initial attack by those 
ranchers who are out on the ground.
    Mr. Bishop. So, the fact that, under past DOI policies, 
AUMs have been declining and decreasing in the United States 
actually harms in this process. It harms in causing more fires, 
it harms actually not having the habitat for these endangered 
species.
    And you didn't even talk about ravens, another endangered 
species that eats the endangered species. And try to tell me 
which endangered species is actually the more important there.
    I have one last question to ask you, because I am running 
out of time and there are so many issues that you all brought 
up here, some of them good, some of them really comedic.
    However, it has been brought up about how people are 
willing to pay more money for private property for grazing than 
they are on BLM land. I can understand that, because private 
property is better for grazing than BLM land. Is there some 
logic to that?
    Mr. Little. Well, Mr. Chairman, if you had a map of the 
West, my ancestors, when they came here, they homesteaded all 
the water. Unfortunately, this Committee's jurisdiction is over 
a lot of dry ground. It is rocky and steep, and it doesn't have 
access.
    Mr. Bishop. You mean like Dugway, which is actually a 
bombing range? I am sorry you can't grow cheatgrass there.
    Mr. Little. So, it is the fact that these ranchers are put 
together with that private ground, where the water is, and----
    Mr. Bishop. I am over time, so I am going to cut you off. I 
apologize for that.
    Let me ask one last question, though, maybe to Mr. 
Westerman.
    While you were grazing cattle did you actually have 170 
lawsuits brought against you, like BLM does?
    Mr. Westerman. Not even one lawsuit.
    Mr. Bishop. OK, fine.
    Mr. McClintock. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Ms. Smallhouse, we have the Federal agencies that oversee 
grazing in New Mexico right next door to you. I suspect they 
are similar DNA when you deal with the agencies. And we had the 
Forest Service kick 17 ranchers off their historic allotments, 
saying that the grass wasn't high enough. Mr. Molvar mentioned 
the grass height as being a key.
    So, we asked for their science. They responded by sending 
us a picture of an orange bucket turned upside down, a 5-gallon 
bucket turned upside down, and said it is not as high on the 
bucket as it is supposed to be.
    Do you ever run into that kind of science, when you are 
dealing with the agencies in Arizona?
    Ms. Smallhouse. Unfortunately, yes, that is the case. I 
haven't heard of anything close to an orange bucket, but I 
think that ranchers, one of the roles they fill on these 
permits, is actually going out and running range transects. So, 
the information that they are gaining on their allotments is 
valid and useful scientific information that otherwise, I 
guess, we would just be getting from an orange bucket.
    Mr. Pearce. Yes. So, what we did is actually engage the 
scientists at New Mexico State, which the government didn't 
bother doing. And they actually said the grass is probably 
higher than it had ever been historically, so all 17 ranchers 
got the opportunity to reinstate their claim there.
    You have heard Mr. Molvar's testimony, that grazing on 
Federal lands is a gift, it is less than maybe one-twentieth of 
the cost. It is just rainbow stew out there. The ranchers are 
willing to come and just take advantage of it.
    Now, in western New Mexico, where we have most of the 
public lands, we are actually seeing the ranchers on public 
lands decrease. So, the animal units are actually decreasing 
across the West since we have no Federal land and we don't have 
a tax base because they were only able to tax the property, 
they are not able to tax the land. So, our counties are simply 
going broke out in the West.
    Are you finding that ranchers are standing in line to get 
access to these Federal lands with this rainbow stew that Mr. 
Molvar points out is available at such cut-rate prices? Are you 
finding a different thing than I am finding in New Mexico, Ms. 
Smallhouse?
    Ms. Smallhouse. I think that ranchers do what they do 
because they love their job. I certainly didn't fly in a 
private jet here. So, the subsidization that is being talked 
about, you have to remember that the price of beef is nearly 
the same as it was 20 years ago. So, to talk about grazing 
permit prices and how they need to increase with inflation, 
well, that would mean that you would be paying a lot more for 
your pair of boots and the steak that is on your plate.
    Ranchers are price takers, we are not price makers. And the 
American public has shown that they support safety nets for 
agriculture since we passed the first farm bill, because it is 
food security. So, I think it is very important to recognize 
that when you talk about the struggles and the permit costs for 
Federal lands.
    Mr. Pearce. Mr. Naugle, you heard Mr. Molvar's testimony 
that actually the cheatgrasses are probably responsible for a 
lot of the fires, that they burn more easily.
    I grew up in New Mexico, and we have had Bermuda grass, we 
have had bluegrass, we had grama grass, we had Johnson grass. 
And every single bit of it, when it is dry, when I dropped a 
match into it, would be within 5 to 50 acres to 100 acres 
within the flash of an eye. Do you find scientific merit in the 
idea that cheatgrass, the proliferation of that across the West 
is the reason we are burning our forests down?
    Dr. Naugle. Cheatgrass grows earlier in the spring. It 
cheats, it takes advantage, and then it dries and cures and 
becomes rapidly flammable.
    Mr. Pearce. Other grasses are not? They are not rapidly 
flammable when they dry?
    Dr. Naugle. They are, but cheatgrass out-competes 
perennials. The perennials are the deep-rooted component of the 
native system that is more resistant and resilient to fire and 
would be preferable, from a wildlife----
    Mr. Pearce. Because our scientists in New Mexico show us 
that 100 years ago, when we didn't have the number of trees per 
acre that we do now, that actually we had grasslands, and I 
suspect it wasn't cheatgrass back then, and that, instead of 
forest fires, we actually had grass fires. And they would burn 
all the grass in an area, regardless of what kind it was, but 
we didn't have the destruction to our watersheds that we have 
now, because now the Forest Service management allows the trees 
to proliferate.
    So, if we are really concerned about the watersheds in the 
West, we would have a balanced thinning program in our forest, 
to where we wouldn't burn everything, and then the next rain, 
the resulting mudslides into the creeks, into the watersheds 
are destroying all the fish, all the wildlife in the West.
    You can take a look at Bonita Lake in New Mexico to see 
exactly what happens there. It was the water source for 
Alamogordo and Holloman Air Force Base. It used to be 75 feet 
deep. After one fire and then the next rain it has 50 feet of 
fill, killed all the fish. It is not usable for water any more. 
So, that is the destruction of the watersheds.
    I don't think the grazing or cows is destroying the 
watersheds nearly as much, Mr. Chairman, as the fires across 
the West. I would yield back my time. Thank you, Mr. Chairman.
    Mr. McClintock. Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. Thanks, members of the 
panel, for being here.
    Ms. Smallhouse, thank you for coming to testify before the 
Subcommittee. The Resilient Federal Forest Act, which was 
passed by the Committee, included a categorical exclusion to 
expedite bureaucratic environmental reviews for many 
activities, such as the maintenance of water infrastructure, 
livestock, and fence modifications. These CEs would improve 
wildlife habitats and better distribute livestock.
    Time and again, we hear how important this CE would be to 
grazers and land managers. However, this common-sense 
streamlining continues to face opposition from the 
environmental left.
    How does the Federal red tape like NEPA and the Endangered 
Species Act impact your family's ability to continue its 
heritage of responsible grazing on Federal lands?
    Ms. Smallhouse. Chairman McClintock, Representative 
Thompson, I appreciate that question.
    The fact is that we have tried to make this process more 
common sense in areas of conservation improvements, so that 
ranchers can take advantage of good times when they can 
implement these practices, and for the benefit of endangered 
species, as you mentioned. All of these things benefit the 
species that are out there.
    The categorical exclusions continue to be an issue in the 
fact that if a permit gets renewed through more of a 
streamlined process, there can be no changes to the permit. 
There can be no new improvements. You can only maintain what 
was already there. And, like any business, you want to invest 
in your business, you want to make it better. It becomes more 
and more difficult, the harder it gets to do these things.
    It was mentioned earlier that BLM employees are strapped 
and in their offices too much, and not able to go out and 
manage. And I would argue that is because they are doing too 
much paperwork related to lawsuits. That is not helpful to 
getting conservation practices out on the ground.
    Mr. Thompson. Some people portray categorical exclusions, 
when we debate those, we incorporate those into legislation, 
they portray that as the fact that we just totally ignore 
environmental concerns. I want to get your opinion. Is that 
true? Or are we just talking about addressing those 
environmental concerns in a more streamlined, efficient manner?
    Ms. Smallhouse. It is about addressing them in a more 
streamlined, efficient manner.
    If you have a fence line and you need to go out and fix it, 
the environmental impact is going to be absolutely minimal. And 
NEPA was created in such a way that you could recognize those 
processes which have very minimal environmental impact and be 
able to utilize the law efficiently. But when you are under the 
threat of litigation constantly, you can't even do that.
    Mr. Thompson. Thank you.
    Governor Little, thank you for being here. The Western 
Watersheds Project has been an active litigant against seeking 
to halt grazing in the name of sage-grouse protection. However, 
it seems that their litigation track record is inconsistent 
with its goals.
    In one such instance, the USDA APHIS wildlife services 
completed a full NEPA analysis and made a final decision to 
approve targeted and scientifically supported predator control 
of ravens in those areas where the bird was found to be 
significantly harming sage-grouse populations by destroying the 
eggs and attacking the chicks.
    As a resident and elected official of the state of Idaho, a 
state that has taken a leadership role in promoting sage-grouse 
species recovery, how would you characterize the threat that 
the ravens and similar predators pose to sensitive sage-grouse 
populations?
    Mr. Little. Well, if you are going to manage these things, 
which we absolutely need to, manage the resource, manage the 
critical wildlife species, there is no question that sage-
grouse falls into that category.
    We need to go back and look at the genesis of both the 
Endangered Species Act and NEPA, and that is to restore the 
species and not to allow these super laws to overlap and cause 
a disruption on what we should be doing--not only the 
disruption and not managing and, obviously, logically, that 
ravens, compared to the desert tortoise, where that was an 
issue in an earlier life that I had, or today in sage-grouse--
that we don't allow these fine points of litigation to get in 
the way of what the big goal is, and that is to restore these 
species.
    We have had a few court rulings recently where they said, 
look, there has been a consensus by the community. The public 
has had their input in the NEPA, and the court has ruled that 
this is within the authority of the agency to do this. We just 
need to accelerate that going forward to where we are doing the 
right thing to actively manage these species and not be frozen 
in time in just doing nothing, because it is not good.
    And the worst thing is what a terrible waste of the Federal 
agencies and the land manager's time it is, instead of getting 
along with active management.
    Mr. Thompson. Thank you.
    Thank you, Chairman.
    Mr. McClintock. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Very interesting 
discussion.
    I would like, Lieutenant Governor Little and Ms. 
Smallhouse, if you would expand a little bit more in terms of 
the benefits of grazing, if you agree with that, in terms of 
being able to deal with wildfire.
    I come out of Colorado. We have several significant fires 
that are burning right now: the 416 Fire near Durango, 
Colorado; the Spring Creek Fire, which is now the second-
largest fire in Colorado history, over 107,000 areas; and the 
Lake Christine Fire near Basalt, Colorado.
    In terms of being able to actively manage some of those 
lands, and to be able to have the grazing, how important is 
that? Because as I have looked through our areas, they are 
mostly watershed, as a matter of fact, is being impacted in the 
416 Fire, and going to have some long-term economic impacts.
    When we are looking at feed for wildlife, when we are 
looking at impacts on our water, when we are looking at the 
impacts, actually, to endangered fish in the streams, once that 
area burns, how important is it to be able to use that tool in 
the toolbox of having responsible ranchers graze?
    Ms. Smallhouse. Chairman McClintock, Representative Tipton, 
the grazing of forest land, it is about much more than even 
just wildland forests. It is about overgrowth. Overgrowth 
causes catastrophic wildfires, as you have suggested. It also 
creates less percolation into the ground for our watersheds. 
This is something we are extremely concerned about in Arizona, 
as I know you are in Colorado, as well, in the Colorado River 
Watershed.
    So, grazing management offers the opportunity to manage the 
understory, manage those watersheds so that we get maximum 
water infiltration, and also break up these monolithic forest 
stands that we have that lead to these catastrophic wildfires.
    I don't know who said it, but someone said nature makes for 
a poor gardener. Nature burns the forest to the ground, and it 
takes 100 years to get it back. It is imperative that we have 
ranchers out there managing for the public's best interests.
    Mr. Tipton. All right. Governor Little?
    Mr. Little. Well, big ecosystems require specific 
management. And whether by litigation edict or by over-arching 
rules from the Potomac River, you just don't get it done. These 
ecosystems evolved over years, and there are places where we 
need to really work. And the biggest threat right now is fire.
    My ancestors had a history of being fire introducers, and 
then my ancestors' ancestors, the tribes, that was part of what 
they did. They utilized fire in certain instances. But today we 
have a whole different situation to where we have to be in 
front of these big, catastrophic fires because of the big 
changing effect that a hot fire will have, and that is initial 
attack and fuels management.
    And the livestock industry is a key component of both of 
those aspects, initial attack, and we know what field we have 
the cattle in, and our rotation. We can say, from a fire 
standpoint, when we are there with a manager that says you need 
to get up this road to get in front of this fire, because that 
is a rested field, and that is the important part, we know that 
we have fuels controlled in another area. So, being a part of 
the solution when we have a fire is something ranchers do.
    Mr. Tipton. Thank you for those comments. I am pretty much 
a firm believer that some of the best custodians of our public 
lands happen to be our ranchers and what they are able to 
contribute, putting in stock ponds that wildlife can drink out 
of, and taking care of invasive weeds that come in. And I 
appreciate that work.
    Mr. Naugle, I would like you to speak a little bit more. We 
have sage-grouse as an issue in our district. We have actually 
found some ways to be able to reinvigorate the species through 
science. It has worked in Colorado, but it is going to take a 
collaborative process at the local level, working with local 
ranchers and farmers, to be able to actually reinvigorate that 
species.
    Would you speak to the importance of having that local 
commitment, given that we have a different type of geography in 
a lot of our areas that the species are in?
    Dr. Naugle. Heterogeneity across the sage-grouse range is 
enormous. And through USDA's Working Lands for Wildlife and 
doing the outcome-based evaluations for NRCS, being part of 
those teams, I see that every time that you have some of those 
local folks that understand that variability you always come 
out with a better outcome that is more durable.
    Mr. Tipton. Great, thank you.
    My time is expired, Mr. Chairman.
    Mr. McClintock. Mr. Gianforte.
    Mr. Gianforte. Thank you, Mr. Chairman, for calling this 
hearing on this important topic, and for the experts we have at 
the panel today.
    Montana has a rich history of ranching and grazing, which 
extends back before our statehood. Many of our ranchers are 
fourth, fifth, and sixth generation families that know the 
land, have worked through extreme drought, heavy flooding, and 
varying seasons. Our ranchers have been stewards of the land 
because their livelihoods have depended on it.
    The only constant has been an increasing Federal presence 
in their lives. Over 30 percent of Montana's land is federally 
owned, including large swaths of central and eastern Montana, 
the base of our grazing community. It is important to have 
agencies that work with, not against, our ranch families to 
accomplish rangewide goals.
    I have heard from many ranchers in Montana that complying 
with Federal regulations can threaten their very viability. The 
experience of over 100 years of working the land, combined with 
new data from work like that of Dr. Naugle's, can create a 
collaboration that keeps the land in production, as well as 
improving critical habitat for species like the sage-grouse.
    My questions are for you, Doctor. It is great to have you 
here. Thank you for making the trip out. You have really made 
it your life's work to study the nexus of ranching, grasslands, 
and sage-grouse. And in your testimony you highlight some of 
the misrepresentations surrounding sage-grouse studies, 
specifically the 7-inch grass height rule.
    After groups tried to use a study which you were a 
participant in to shut down public grazing, you responded 
appropriately that overgrazing was not the problem, but we 
could still use more information. Could you elaborate a little 
bit on some of the other factors that contribute to the success 
or decline of sage-grouse?
    Dr. Naugle. The range of sage-grouse from its historic 
range has been cut in half. And I have a hierarchy in my mind, 
and grazing is one of those compatible land uses that, if you 
can have ranchers on the team, to get that local durability, 
compared to these big and over-arching, vexing issues like 
catastrophic wildfire, cheatgrass, invading pinyon-juniper--
where we live in eastern Montana, the biggest one is when we 
lose ranchers to farming. We published a paper 2 years ago that 
showed that every time 1 square mile of big and intact grazing 
lands gets cultivated into a wheat field, it affects sage-
grouse on a landscape 12 times that size. So, when we do 
voluntary conservation easements, apply other NRCS farm bill 
practices, they have to match that tremendously large scale at 
which sage-grouse and ranchers view the landscape.
    Mr. Gianforte. How can our ranchers help improve the 
landscape habitat through volunteer programs?
    Dr. Naugle. We sat down with the Fish and Wildlife Service 
and we have conditioned these practices with NRCS, so that they 
are good for grouse and good for ranching. So, it is that win-
win solution. If they decide to come in, and that is their 
family's decision, we can offer, through NRCS, a set of 
practices that we know will be good for grouse and we know will 
help their bottom line and their sustainability.
    Mr. Gianforte. OK, and as it warms up, we have had some 
discussion here about wildfires. And that is certainly where 
our concern turns, particularly in Montana.
    Have you done any research on grazing and landscape 
resiliency to fire? What can you share with us?
    Dr. Naugle. Again, back to the deep-rooted perennials that 
are resistant to fire, resilient, and then, when we do have a 
fire, the ability to have budgets to go ahead and get in fast 
and spray pre-emergent herbicides and seed those areas to try 
to get a jump on cheatgrass so that they remain native and 
intact.
    Mr. Gianforte. Have you done any research on the effect of 
grazing and its interaction with wildfires?
    Dr. Naugle. Not personally, I have not.
    Mr. Gianforte. OK. Does grazing reduce fuel loads?
    Dr. Naugle. Yes, there is new work. It is not mine, but it 
shows that it is not necessarily the shrubs that always carry 
the fire, but it is the herbaceous vegetation between the 
shrubs. So, if you graze periodically and keep fire loads in 
check, you may still have a fire, but it may be a few thousand 
acres, and not a million.
    Mr. Gianforte. And you say there is scientific research on 
the interaction between grazing and wildfires and fuel loads 
that you might be able to point us to?
    Dr. Naugle. Yes.
    Mr. Gianforte. OK. Thank you, I yield back.
    Mr. McClintock. Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman. I also would like to 
express my appreciation to those who have come to testify 
today.
    If I could start with Ms. Smallhouse, you represent the 
Farm Bureau. If your work in Arizona is anything like the Farm 
Bureau in Utah, your state is lucky to have you, and the 
influence of the Farm Bureau in Utah is very important.
    I represent a number of counties that have up to 92 percent 
Federal land. There really is no legitimate option for private 
land in these situations, as you can well imagine. These 
counties are also struggling. We have double-digit unemployment 
in many of these counties. And I am wondering if you can 
comment about the importance of grazing on economic development 
in our rural counties and rural parts of our states.
    Ms. Smallhouse. Chairman McClintock, Representative Curtis, 
thank you for the question. Living in a rural area of Arizona, 
I experience firsthand how difficult it is for these local 
economies to keep going. There are a lot of areas, especially 
in these areas that are heavily public lands, there is very 
limited opportunity for economic development. Most of the 
economic development that can keep these communities going are 
the opportunities that exist on those public lands.
    Now, there are several opportunities. There is recreation, 
there is sportsman's use, and there is basically grazing. The 
recreation and the sportsman's use would be very difficult to 
continue without grazing there as a base use on those lands. 
So, not only by removing grazing from these public lands and 
these rural areas are you impacting the rancher and that part 
of the rural economy, but you are also stripping away the 
potential for further economic development through those other 
uses.
    Mr. Curtis. Is it fair to say that, as a general rule, 
these prices that are set for grazing, that nobody is really 
getting rich in these rural communities off these prices?
    Ms. Smallhouse. Well, I think you can tell by the amount of 
people going out of the ranching business that that is not the 
case. We certainly don't have people, as was said before, 
rushing to the BLM office to pick up these permits. It is 
something that you do because you love, and you love the land, 
and you want to manage.
    Mr. Curtis. Thank you. I am working on some public lands 
bills and you might have well experienced the controversy that 
comes with public lands bills. What do you think is the best 
way to resolve the conflicts that come surrounding these 
Federal lands that we have?
    Ms. Smallhouse. I actually think that the conflicts are 
very specific, narrow, and targeted. I think the general public 
supports our use of public lands. I think the general public is 
very supportive of agriculture, in general.
    I think what we have is groups of environmental 
organizations who have discovered how to use environmental laws 
like the Endangered Species Act and NEPA as a tool, like a bat, 
over our heads. And that is not what those laws were intended 
for. I think that if we had a laser focus on how to address the 
misuse of NEPA and ESA, then that would be very helpful in 
keeping these programs efficient and effective.
    Mr. Curtis. Is it fair to say that these ranchers often 
feel villainized and that they are made out to be the bad guys 
through this environmental process that you described?
    Ms. Smallhouse. As was mentioned earlier, I certainly don't 
think being referred to as a cancer is a compliment.
    Mr. Curtis. Good point.
    Dr. Naugle, a lot of my ranchers are concerned about the 
decreased amount of grazing that is allowed on Federal lands. 
It brings a lot of uncertainty to their lives, and they see a 
pattern of fewer and fewer animals on the land. Are there 
potential benefits to increasing grazing in certain areas?
    Dr. Naugle. I can speak to the compatibility of grazing and 
wildlife conservation. There are two new studies that are not 
mine, the first one is actually from the University of Idaho 
that shows a higher sage-grouse nest survival in grazed versus 
idled pastures. And then they are also looking at insect 
abundance, and finding that periodic grazing by livestock 
increases food abundance. And, of course, that is in a dryer 
system farther west than in the Rocky Mountains, where I do 
most of my work.
    Mr. Curtis. Very well, thank you.
    Mr. Chairman, I yield my time.
    Mr. McClintock. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, for allowing me to 
sit in today on the Committee.
    Panelists, thank you for coming here today. Obviously, it 
is a tough issue when you have the enviros versus the people 
out there being stewards of the land. What I looked at is that 
if we did not have grazing on these western lands--and I would 
like to toss this first to you, Dr. Naugle, what would it look 
like in the West, if we did not have this, as far as fire 
suppression and things you mentioned there with the rotation of 
the landscape?
    If this was completely cut off, like Mr. Molvar would like 
to see happen with very little to no grazing on these western 
lands, as a management tool, as well as whatever economics 
people might, what would that look like in 20 years?
    Dr. Naugle. Heterogeneity is enormous. I would caution 
myself against ever making a sweeping general statement, but I 
believe some ecological sites would have the potential to grow 
more vegetation. Sites that are already over-run with 
cheatgrass would become more flammable. And I don't think 
anybody would disagree that, from a grouse perspective, our 
next biggest issue is catastrophic wildfire that is most 
vexing.
    Mr. LaMalfa. Indeed. Anecdotally, I can show you 
photographs here of grazed management areas where a wildfire 
burned right up to the fence line where the grazing stops, and 
they were able to get a handle on the fire, obviously, at that 
point.
    Ms. Smallhouse, what would you have to offer on that 
thought? What would our western lands look like if we didn't 
have this as a tool?
    Ms. Smallhouse. I think it is very difficult to ask 
questions like that, because questions like that tend to assume 
that everywhere surrounding those lands looks like it did 200 
years ago. In order for us to not have a human presence on 
these watersheds, we would not be able to exist. And I think 
that sometimes the argument is presented by environmental 
organizations that we can manage our lands as if that were the 
case, and it is not.
    So, I think it just depends on where you are at. Like Dr. 
Naugle stated, it just depends on where you are at and the 
management that is taking place. I think there are definitely 
areas that would have a negative impact from that. And it would 
not only be on the environment, but it would also be to local 
economies and just families like my own.
    Mr. LaMalfa. Well, environmental groups don't tend to care 
about local economies, as they are all about every last fish or 
every last grouse. In my own back yard, for example, we have 
the Shasta-Trinity Forest and Plumas that have 14 and 22 
vacancies for grazing allotments currently. And once those have 
been allowed to lapse, and then boom, you are into the 
weaponizing of the NEPA process, which basically puts complete 
brakes on ever getting back in there, due to the cost, due to 
the hassle involved in doing that. So, areas like mine suffer 
with even more wildfire in that situation.
    Mr. Molvar, are you a beef user, consumer?
    Mr. Molvar. Since I joined Western Watersheds Project and I 
started learning more about the impacts, I eat a lot less beef 
than I used to. I think hunted native species provides most of 
my red meat, pronged-horn antelope, specifically.
    Mr. LaMalfa. Would you expect 300 million Americans out 
there that like meat products to be doing that, as well?
    Mr. Molvar. I would not. But on the other hand, as 98 
percent of America's beef is produced from private lands, if 
the public lands livestock grazing program were to magically 
disappear tomorrow, which I am not suggesting that it will, 
that America's beef consumers would not only have just as much 
beef as before, but they wouldn't even notice a price 
difference.
    Mr. LaMalfa. Wouldn't notice a price difference? I think 
they would in the West.
    Lieutenant Governor Little, what would be the effects in 
your region, which reminds me a lot of my own Northern 
California, of the continued effort to weaponize the NEPA 
process and, in general, run the beef business out of our 
public lands? Many times they are adjacent to private lands, in 
which case we see the Federal Government lands are bad 
neighbors to private lands. You can ask the Hammonds about 
that.
    Mr. Little. There are a lot of ancillary impacts, 
obviously, and what I alluded to in my testimony about the loss 
of that infrastructure in those communities. People that go to 
enjoy the public lands in the West rely on the hospitals, rely 
on the schools, rely on the commerce that exists there. And if 
those families are displaced, and it is only seasonal 
occupants, a lot of those communities will collapse.
    Mr. LaMalfa. Indeed, all those people that come from the 
city and like going hiking in these back woods and all those 
wonderful outdoor activities would find there is no 
infrastructure to support them should they get in trouble, 
right?
    Mr. Little. And the fact that the private land that is 
provided would probably, in many instances, be subdivided if 
they didn't have that adjacent permit to operate. The beef 
industry, particularly in the states that we represent up here, 
is very dependent upon that critical time period when that 
livestock is on those public lands. It is that winter range, 
that summer range that makes the rest of a ranch operate, 
whether it is a forest permit or a BLM permit, which is an 
integral part of these ranches that have been built for 
hundreds of years.
    Mr. LaMalfa. Indeed, urban ideology and not having any idea 
what it is like to operate or live in those rural areas, other 
than visitation. Thank you, sir.
    I yield back, Mr. Chairman.
    Mr. McClintock. Thank you. I want to thank our witnesses 
for their expertise and guidance. It has been a very 
interesting hearing, and their presence here is much 
appreciated.
    We may have some additional questions. If we do, we would 
ask that you respond to them in writing. Under our Committee 
Rules, Members would have to submit witness questions within 3 
business days following the hearing, and the hearing record 
will be held open for 10 business days for those responses.
    If there is no further business before the Subcommittee, 
without objection, the Subcommittee stands adjourned.

    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Grijalva Submissions

    --  Study entitled ``Ecological Impacts of Public Land 
            Grazing in the American West and Why These Impacts 
            Need to be Reduced or Eliminated,'' by Roberta L. 
            Beschta and J. Boone Kauffman, Oregon State 
            University, dated July 25, 2018.

    --  Testimony of the Public Employees for Environmental 
            Responsibility dated July 12, 2018.

                                 [all]
                                 
                                 
                                 
</pre></body></html>
